<html>
<title> - THE RESURGENCE OF HEROIN USE AND ITS EFFECT ON YOUTH</title>
<body><pre>[Senate Hearing 106-982]
[From the U.S. Government Printing Office]




                                                        S. Hrg. 106-982

          THE RESURGENCE OF HEROIN USE AND ITS EFFECT ON YOUTH

=======================================================================

                                HEARING

                               before the

                     SUBCOMMITTEE ON YOUTH VIOLENCE

                                 of the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                                   on

   EXAMINING THE PROBLEM OF HEROIN ABUSE AND IMPLEMENTING TREATMENT 
                                PROGRAMS

                               __________

                             NEW CASTLE, DE

                               __________

                           NOVEMBER 15, 1999

                               __________

                          Serial No. J-106-61

                               __________

         Printed for the use of the Committee on the Judiciary


                    U.S. GOVERNMENT PRINTING OFFICE
71-969 DTP                  WASHINGTON : 2001





                       COMMITTEE ON THE JUDICIARY

                     ORRIN G. HATCH, Utah, Chairman

STROM THURMOND, South Carolina       PATRICK J. LEAHY, Vermont
CHARLES E. GRASSLEY, Iowa            EDWARD M. KENNEDY, Massachusetts
ARLEN SPECTER, Pennsylvania          JOSEPH R. BIDEN, Jr., Delaware
JON KYL, Arizona                     HERBERT KOHL, Wisconsin
MIKE DeWINE, Ohio                    DIANNE FEINSTEIN, California
JOHN ASHCROFT, Missouri              RUSSELL D. FEINGOLD, Wisconsin
SPENCER ABRAHAM, Michigan            ROBERT G. TORRICELLI, New Jersey
JEFF SESSIONS, Alabama               CHARLES E. SCHUMER, New York
BOB SMITH, New Hampshire

             Manus Cooney, Chief Counsel and Staff Director

                 Bruce A. Cohen, Minority Chief Counsel

                                 ______

                     Subcommittee on Youth Violence

                    JEFF SESSIONS, Alabama, Chairman

BOB SMITH, New Hampshire             JOSEPH R. BIDEN, Jr., Delaware
JON KYL, Arizona                     DIANNE FEINSTEIN, California
JOHN ASHCROFT, Missouri              HERBERT KOHL, Wisconsin

                       Kristi Lee, Chief Counsel

                 Sheryl Walter, Minority Chief Counsel

                                  (ii)
                            C O N T E N T S

                              ----------                              

                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page

Biden, Hon. Joseph R., Jr., U.S. Senator from the State of 
  Delaware.......................................................     1
Specter, Hon. Arlen, U.S. Senator from the State of Pennsylvania.     3

                    CHRONOLOGICAL LIST OF WITNESSES

Panel consisting of Alan I. Leshner, Ph.D., Director, National 
  Institute on Drug Abuse, National Institutes of Health; Charles 
  O'Brien, M.D., Ph.D., chief of psychiatry, Philadelphia 
  Veterans Medical Center, and professor of psychiatry, 
  University of Pennsylvania School of Medicine; William R. 
  Nelson, acting special agent in charge, Philadelphia Field 
  Division, Drug Enforcement Administration, and Thomas C. 
  Maloney, president and executive director, SODAT Drug Treatment 
  Center.........................................................     6
Panel consisting of Sgt. Tony Hernandez, New Castle County police 
  officer, Heroin Alert Unit; Lt. Karl Hitchens, New Castle 
  County paramedics supervisor; Marie Allen, Heroin H.U.R.T.S; 
  Maria Matos, executive director, Latin American Community 
  Center; and Sally Allshouse, Brandywine Counseling and 
  Treatment......................................................    41

                ALPHABETICAL LIST AND MATERIAL SUBMITTED

Allen, Marie: Testimony..........................................    43
Allshouse, Sally: Testimony......................................    46
Hernandez, Sgt. Tony: Testimony..................................    41
Hitchens, Lt. Karl: Testimony....................................    42
Leshner, Alan I.:
    Testimony....................................................     6
    Prepared statement...........................................     7
Maloney, Thomas C.: Testimony....................................    24
Matos, Maria: Testimony..........................................    44
Nelson, William R.:
    Testimony....................................................    16
    Prepared statement...........................................    20
O'Brien, Charles, M.D., Ph.D.:
    Testimony....................................................    12
    Prepared statement...........................................    14

 
          THE RESURGENCE OF HEROIN USE AND ITS EFFECT ON YOUTH

                              ----------                              


                       MONDAY, NOVEMBER 15, 1999

                               U.S. Senate,
                    Subcommittee on Youth Violence,
                                Committee on the Judiciary,
                                                    New Castle, DE.
    The committee met, pursuant to notice, at 10:18 a.m., at 
the New Castle Police Headquarters, New Castle, DE, Hon. Arlen 
Specter presiding.
    Also present: Senator Biden.

OPENING STATEMENT OF HON. JOSEPH R. BIDEN, JR., A U.S. SENATOR 
                   FROM THE STATE OF DELAWARE

    Senator Biden [presiding]. Good morning, everyone. Thank 
you all very much for being here. I apologize for being late. I 
told Senator Specter that it is twice as far from route 141 as 
it is from Philadelphia, is the reason why.
    I particularly want to thank Senator Specter on two 
accounts. One, for coming down to hold this hearing, and 
second, and technically, he should be opening this hearing. In 
case no one has noticed--I know former Mayor Maloney has 
noticed--I am in the minority. That means that I am the ranking 
member of a committee and it means that the majority always 
runs the hearing. So Senator Specter is really chairing this 
hearing, but he has been kind enough to allow me in my home 
State to do what I used to do in the bad old days when my team 
was in charge.
    When it comes to Senator Specter and me, those who know us, 
and the news media know us because they are always reluctant 
that we never criticize one another, when it comes to us, we 
are a team. We are friends. I can only think of a couple things 
we have disagreed upon, and this is not one of them. So I want 
to thank Senator Specter for making the effort and being so 
courteous to me.
    Second, I am going to make a relatively brief opening 
statement here and then I will turn it over to Senator Specter 
and then we will introduce the witnesses, and I thank them all 
for being here. We have two very distinguished panels this 
morning, and as you can tell by the turnout, there is keen 
interest and concern about the subject matter of our hearing 
today.
    This is a hearing of the Senate Judiciary Youth Violence 
Subcommittee, a field hearing on heroin abuse, and I 
especially, as I said, appreciate Senator Specter being here. I 
also appreciate the chairman of the subcommittee, Senator 
Sessions of Alabama, for authorizing us being able to have this 
hearing.
    We are here today to focus on the resurgence of heroin and 
to discuss steps that we can take now to prevent it from 
wreaking havoc on our communities like crack cocaine did in the 
mid-1980's and up into the mid-1990's.
    There is always a drug of the moment. In the mid-1980's, it 
was crack. In the mid-1990's, it was methamphetamine. Today, in 
my view, it is heroin. Senator Specter and I join together 
today to hold this hearing to highlight the Delaware-
Pennsylvania, more particularly the Delaware-Philadelphia 
deadly heroin connection.
    The drug trade does not recognize State boundaries, and all 
of us in Delaware and Pennsylvania, and Delaware and the 
Wilmington-Philadelphia area, need to work together to address 
the problem. I would like to say publicly today that the ball 
is rolling to include Delaware in the Philadelphia-Camden, what 
we call high-intensity drug trafficking area, known as HIDTA, 
which allows particular resources to be able to be used, extra 
resources to be able to deal with the drug problem. I expect we 
will hear testimony today from our law enforcement folks about 
why this should happen.
    In a 20-minute drive, teens and young people from 
Delaware--and, by the way, they do not have to drive 20 minutes 
to get heroin when they can get it right here in our own 
streets, but in a 20-minute drive, teens and young adults from 
Delaware, many of them from hard working middle-class families 
in the suburbs, go to the badlands and the streets in the 
Kensington section of Philadelphia, and for $10 a bag buy 
heroin that is as much as 90 percent pure. It is a death drive. 
It is killing our young people. It is destroying our families. 
We are here today to try to figure out how we can stop it.
    There are an estimated two million heroin users in the 
United States today, and that number is growing. As our 
witnesses today will attest, heroin use is on the rise, 
especially among young people. Long-term national data showed 
that in 1997, we had the highest level of heroin use among high 
school seniors since 1975. Here in New Castle County, in the 
first half of this year, there were 71 heroin-related 
overdoses, ten of which resulted in death. Fifteen of those 
overdoses involved teenagers, including one 14 years of age.
    It is no coincidence that the rise in heroin use among 
youth is happening as heroin purity levels are skyrocketing. 
When heroin was less potent, users had to inject it to get the 
same high. Now that heroin is up to 90 percent pure in some 
cities, including Philadelphia, users can get high by smoking, 
snorting, or inhaling the drug, making it much more attractive 
to teens and to young adults.
    No matter how heroin is taken, it is addictive and it is 
deadly. We are going to hear some tough testimony today, the 
toughest from Marie Allen, whose daughter, Erin, became 
addicted to heroin after snorting the drug, and after three 
years' struggle with the addition, it finally killed her at the 
young age of 21.
    There is no other disease that affects so many directly and 
indirectly as does addiction. We have 14 million drug users in 
this country, four million of whom are hardcore addicts. We all 
have family members, neighbors, colleagues, or friends who 
found themselves or their children addicted to drugs, and we 
are all affected by the clear connection between drug use and 
crime.
    An overwhelming 80 percent of the 1.8 million men and women 
behind bars today in the United States have a history of drug 
and alcohol abuse or addiction or were arrested in a drug-
related crime. If we decrease drug use, we decrease crime. It 
is simple arithmetic.
    As a nation, our primary response to the drug epidemic has 
been punishment. Clearly, simply locking up people has not 
solved the problem of drug-related crime, and Senator Specter 
and I have been authors, and I make no apologies for it, of 
some of those very tough drug laws that we passed.
    In the 1994 Biden crime law, we created drug courts as a 
cost-effective innovative way to deal with nonviolent offenders 
who need drug treatment to keep them from getting into the drug 
stream fully. Delaware's adult drug court judges Richard 
Gebelein and Carl Goldstein are with us today, as well as our 
juvenile drug court judge, Peggy Ableman, as well as Wilmington 
and New Castle County and Delaware State Police, all of whom 
are here today, and they can tell you the effectiveness of 
these courts.
    Senator Specter and I are fighting in Congress to continue 
funding for drug courts. Quite frankly, as a member of the 
Appropriations Committee, Senator Specter has played an 
incredibly important role, not only in this, I might add, but 
in our Violence Against Women Act. He is the guy who has made 
sure when some in my party and his party decided not to fund 
fully that Act, and not to fund fully the shelters, he is the 
guy that bucked everyone, put it in, and forced them to vote, 
and after the first vote of us getting beat, we went back at it 
again and we won, and the very person who took the money out 
asked to cosponsor it when you put it back in. So I just want 
you to know, this is an effective advocate right here and has 
been a major player in making sure that these programs work, 
particularly fighting for the drug courts now.
    As our first witness, Dr. Alan Leshner, has taught us, 
addiction is a chronic, relapsing disease. Ten years ago, I 
asked the question, if drug addiction is an epidemic, are we 
doing enough to deal with the medical cure? That led to the 
creation of the Medications Development Division at the 
National Institute of Drug Abuse, dedicated to unleashing the 
tremendous power of medical science to find medical cures for 
this social and human ill. I commend them for the great 
progress they have made thus far, and I understand there is a 
promising new treatment for heroin addiction that Dr. Alan 
Leshner, who is here today, and his team at the National 
Institute of Drug Abuse helped to develop. I look forward to 
hearing their testimony.
    But before I introduce the first panel of witnesses, let me 
turn now to my colleague on the Senate Judiciary Committee and 
my friend for an opening statement.

 OPENING STATEMENT OF HON. ARLEN SPECTER, A U.S. SENATOR FROM 
                   THE STATE OF PENNSYLVANIA

    Senator Specter. Thank you very much, Senator Biden. Thank 
you for inviting me to this important hearing today. Senator 
Biden and I have collaborated on many matters in the course of 
the past 19 years. We ride the train from Washington to 
Wilmington, and there is a tremendous amount we can accomplish 
in that kind of a ride.
    I have been very much impressed with what Senator Biden's 
publications have been. I have received not too long ago this 
elegant treatise on the successes of the Violence Against Women 
Act by Senator Biden. Somehow, he left my name off as a co-
author. [Laughter.]
    This is in September, and on November 15, heroin. I said to 
Senator Biden before we began here, what happened to October? I 
want to make sure I have the full edition of the current 
treatises.
    Senator Biden. That is on the Nuclear Test Ban Treaty. It 
is coming.
    Senator Specter. Speaking of the Nuclear Test Ban Treaty, 
we worked on that together last month, as well, and while we 
have not yet been successful on that, just stay tuned. We will 
be.
    The issue of heroin, the broader issue of drugs, the 
broader yet issue of violent crime, is one where we have not 
had an adequate societal response. I became an assistant DA 
many years ago. I hesitate to think of the year--1959. I was a 
younger lawyer then. I am still a young lawyer. I have watched 
our failure to respond to the drug problems and to the issue of 
rehabilitation generally, because there are answers.
    We need to divide the criminal element into two groups, the 
career criminals, where we need to throw away the key, life 
sentences. Senator Biden and I collaborated many years ago on 
the armed career criminal bill, which provides for a life 
sentence. That is 15 years to life in the Federal courts for 
anyone with three or more violent offenses, including sale of 
drugs, anyone found in possession of a firearm.
    There is another class of criminal, one who will be 
released, and what we need to do is to provide realistic 
rehabilitation. That means drug treatment, that means alcohol 
treatment, that means literacy training, and that means job 
training. We are not going to solve the problem of drugs unless 
we work hard on the so-called demand side, that is, to try to 
eliminate the demand.
    For many years, I served as district attorney in 
Philadelphia and I think you have to have tough law 
enforcement. But tough law enforcement is not going to solve 
the problem as long as there is so much money in selling drugs, 
and there is a tremendous amount of money. It is long past due 
that we devoted at least 50 percent of the resources to the 
demand side.
    Senator Biden refers to some of the work that I have done 
on the Appropriations Committee, and there, we are really 
placing tremendous resources into the so-called demand side. 
The National Institutes of Health had an increase in its budget 
of almost $1 billion 2 years ago. Last year, Senator Tom Harkin 
and I--he is the ranking Democrat, and I learned a long time 
ago that if you want to get anything done in Washington, you 
have to cross party lines, as Senator Biden and I are again 
today--Senator Harkin and I took the lead in adding $2 billion 
to the National Institutes of Health. This year, we are still 
working on the budget. It is $2.3 billion, and candidly, our 
colleagues are aghast at the kind of funds we are adding, but 
nobody has the audacity to try to remove them, that is, not 
publicly.
    But speaking of the NIH Institute on Drug Abuse, that 
funding is up now to $690 million, an increase of $81 million 
from last year. The Substance Abuse and Mental Health Services 
Administration has a block grant to the States of $1.6 billion. 
That is a lot of money. And treatment programs, $214 million 
this year, which is an increase of $43 million over last year.
    So those are some of the avenues which we need to approach, 
and I am delighted to look forward to the very distinguished 
testimony we will hear today from our very impressive panel of 
witnesses.
    Thank you again, Senator Biden, for including me.
    Senator Biden. Thank you, Senator, and the only reason I 
did not put your name on the Violence Against Women report is 
the reason I put that report out was I was getting criticism--
questions from within my own party as to how effective was it, 
how was it working. So I did not want to put you in any more 
jeopardy than you already are about being associated with me as 
much as you are in your party.
    Senator Specter. Well, goodness knows, I never get any 
questions from my party. [Laughter.]
    Senator Biden. We have a truly, for the local press here, a 
truly distinguished panel. I want to briefly explain why we 
decided to ask this panel to be put together in the way it has 
been.
    One of the things that we have found is there is an 
emerging consensus among law enforcement, the DEA, the 
treatment folks, like Tom Maloney at SODAT, and Dr. O'Brien, 
the University of Pennsylvania School of Medicine, as well as 
at the National Institute of Drug Abuse. There was a report, 
and poor Dr. Leshner, I am a broken record on this since the 
mid-1980's, another report that I wrote back in 1989 calling 
for spending over $1 billion on beginning the process of 
dealing with pharmacotherapy treatment of the drug abuse 
problem. There always have been promising drugs. There always 
have been promising alternatives.
    But what has happened is, in fairness to the drug 
companies, it is not very much in their interest to promote 
them. It is not very much in their interest. If we have 1.7 
million addicts, you come up with a cure for those addicts, 
then you have 1.7 million people to market it to, and of those 
folks, none of them want to buy it. So it gets difficult.
    But we have with us today a genuine leader in this area, 
the Director of the National Institute on Drug Abuse, Dr. Alan 
Leshner, who we will hear from. Then on the same panel, we will 
also hear from one of the country's foremost experts on heroin, 
Dr. Charles O'Brien, who is at the University of Pennsylvania 
Medical Center and a professor and vice chair of psychiatry at 
the University of Pennsylvania, as well as the senior Drug 
Enforcement Administration agent from the Philadelphia-Delaware 
region, Bill Nelson with the DEA. He knows the territory very, 
very well.
    Locally here, a man who runs one of the most successful 
programs in the country of its size and scope, Mr. Tom Maloney, 
the former mayor of the City of Wilmington who runs SODAT Drug 
Treatment Center in Wilmington and who will talk about the 
effectiveness from his perspective of the juvenile drug court, 
as well as SODAT's use of naltrexone to treat heroin addiction.
    Dr. Leshner, the floor is yours. I keep saying ``Lesher'' 
because there used to be a great high school basketball player 
who Tom and I played with, went off to West Virginia, and his 
name was Lesher, from my home city of Claymont, and I 
apologize. But you can easily administrate as well as he could 
shoot, and he could shoot the lights out.

PANEL CONSISTING OF ALAN I. LESHNER, PH.D., DIRECTOR, NATIONAL 
INSTITUTE ON DRUG ABUSE, NATIONAL INSTITUTES OF HEALTH; CHARLES 
    O'BRIEN, M.D., PH.D., CHIEF OF PSYCHIATRY, PHILADELPHIA 
     VETERANS MEDICAL CENTER, AND PROFESSOR OF PSYCHIATRY, 
   UNIVERSITY OF PENNSYLVANIA SCHOOL OF MEDICINE; WILLIAM R. 
  NELSON, ACTING SPECIAL AGENT IN CHARGE, PHILADELPHIA FIELD 
   DIVISION, DRUG ENFORCEMENT ADMINISTRATION; AND THOMAS C. 
MALONEY, PRESIDENT AND EXECUTIVE DIRECTOR, SODAT DRUG TREATMENT 
                             CENTER

                  STATEMENT OF ALAN I. LESHNER

    Mr. Leshner. Thank you, sir. I am only sorry my basketball 
game is terrible.
    Senator Biden. So is mine.
    Mr. Leshner. Good morning. I am very pleased to be here and 
I will discuss only briefly how science is helping us to combat 
the major public health problem of increased heroin use, 
particularly among our use.
    Heroin is, of course, sold in many different forms, and it 
can be injected, sniffed, snorted, or smoked. Taken by any of 
these routes, heroin very rapidly enters the brain, where it 
attaches to the brain's natural opiate receptors. It is 
important that heroin also acts on the brain's natural rewards 
circuitry, where it produces pleasurable sensations.
    Now, as street heroin has become cheaper and purer in the 
last few years, it is being used more and more by the 
noninjecting routes, like sniffing or smoking. This appears to 
have made heroin more attractive to young people, who 
historically have been adverse to injecting drugs, but who seem 
now to think that by snorting heroin, they are protected from 
its addictive and other harmful properties. This, of course, is 
simply wrong. Heroin is extremely addicting no matter how it is 
taken, and we know that many heroin smokers and snorters 
rapidly progress to injecting, as well.
    A critical problem with heroin use is that, over time, 
prolonged use actually changes the brain's structure and 
function. These brain changes, then, lead to the compulsion to 
use drugs. That compulsion is the state that we call addiction. 
And this brain change-induced state of compulsion is actually 
the essence of addiction and is what causes family and 
community disruption.
    The fact that addiction has this biological basis rooted in 
brain changes is why people cannot simply stop using heroin. 
The brain change is why they require treatment to get their 
compulsion or addiction under control. Fortunately, our strong 
science base has provided a number of effective treatments to 
help combat heroin addiction.
    For example, thanks in part to Senator Biden's interest in 
developing antiaddiction medications and Senator Specter's 
strong support of NIDA's overall budget through his role as 
chair of NIH's Appropriations Committee, the biomedical 
research community has been developing new medicines to help 
treat addiction. Two of the most successful treatments for 
heroin addiction, methadone and LAMM, are helping many addicts 
who previously were a drain on society now to lead productive 
lives.
    I am pleased to say that we are now very near to bringing 
the Nation another medication to help treat heroin addiction, 
this one called buprenorphine or buprenorphine naloxone. 
Because of this particular medicine's pharmacological 
properties, we expect buprenorphine will be administered in a 
more traditional medical environment, such as in physicians' 
offices, thus expanding treatment options tremendously.
    In spite of this progress, less than half the Nation's four 
million drug addicts have received any drug addiction 
treatment. Thus, there is a tremendous need to make state-of-
the-art science-based treatments more widely available and more 
widely used.
    I am pleased to mention here that last month, NIDA launched 
its much anticipated national drug abuse treatment clinical 
trials network. This network will serve not only as a mechanism 
for testing science-based treatments in real life settings, but 
also as a mechanism for promoting the rapid translation of new 
treatments into actual community use.
    I am especially pleased that one of the first nodes of this 
network is located in the Delaware Valley. The network is 
centered at the University of Pennsylvania, but it also 
includes ten treatment organizations as partners in 
Pennsylvania, New Jersey, and here in Delaware. Clinical trial 
network nodes have also been established in four other regions 
of the country, and we hope to expand this network by at least 
five new nodes each year.
    I am going to conclude here, but I would like to state 
emphatically that although the data on heroin use is alarming, 
science does provide us with much hope for getting a better 
handle on this serious public health problem. I thank you for 
the opportunity to testify and I will be happy to respond to 
your questions.
    Senator Biden. Thank you, Doctor.
    [The prepared statement of Mr. Leshner follows:]

                 Prepared Statement of Alan I. Leshner

    Thank you for inviting me to participate in this important hearing. 
I am Dr. Alan I. Leshner, the Director of the National Institute on 
Drug Abuse (NIDA), one of the research institutes that comprise the 
National Institutes of Health. As the world's largest supporter of 
research on the health aspects of drug abuse and addiction, I would 
like to share with you today what NIDA-supported research has come to 
teach us about heroin abuse and addiction.
    In the United States, there are over 810,000 people addicted to 
this illegal drug. Heroin is both the most frequently abused and the 
most rapidly acting of the opiates. It is processed from morphine, the 
naturally occurring substance extracted from the seed pod of certain 
varieties of poppy plants. It is usually sold as a white or brownish 
powder, or in some regions of the country (particularly in the 
Southwest) as a black sticky substance known on the street as ``black 
tar heroin.'' Heroin can be injected, sniffed/snorted or smoked. It is 
important to point out at the outset that regardless of how heroin is 
taken it is extremely addictive and can lead to other detrimental 
consequences as well.
    Heroin abuse is not a new problem. In fact opiate use dates back 
long in history. What is new and particularly alarming, however, is the 
high purity of today's heroin, its inexpensive price, and the way it is 
being taken, all of which appear to be recruiting new users. Heroin is 
now cheaper and purer than ever, making it more accessible to young 
people who can smoke or snort the drug rather than inject it 
intravenously. Until recently, the most common route for administering 
heroin was through intravenous injection. Today, given the purity of 
the drug, in many regions of the country, including the Philadelphia 
metropolitan area, where street-level heroin purity remains one of the 
highest in the Nation, people can snort heroin and achieve a high that 
is similar to what they can obtain from injection. Our research is 
showing that many of the new initiates to heroin are in fact trying the 
drug because they can snort it and think they would be protected by not 
injecting. In addition to that last fact being clearly wrong, studies 
also show that noninjecting heroin users are at considerable risk of 
becoming injection drug users (IDUs). In fact, more than 15 percent of 
participants in a recent study transitioned from other routes of 
administration to drug injection during an average period of little 
more than a year.
    The health risks associated with both injecting and noninjecting 
heroin use are also substantial. For example, because of the behavioral 
factors (high risk sexual activity, sharing of drug paraphernalia) 
associated with heroin use, the chances of the individual contracting 
an infectious disease such as HIV, hepatitis B, and in rare cases 
hepatitis C, are greatly increased regardless of route of 
administration.
    The misperceptions about the addictive properties of heroin, may 
account for why in 1997, an estimated 81,000 persons used heroin for 
the first time. We are also seeing increases in the annual number of 
heroin-related emergency room visits. From 1991 to 1997, the annual 
number of emergency room visits in major metropolitan areas increased 
from 36,000 to 72,000. Similar trends are being seen in the Delaware 
Valley. The number of emergency room visits involving heroin in 
Philadelphia has increased from 2,653 in 1990 to 3,817 in 1997.
    We are also seeing increases in the number of individuals who are 
seeking treatment for heroin addiction caused by snorting or 
inhalation. Nationally, admissions, for heroin use by injection have 
dropped from 77 percent of all heroin admissions in 1992 to 68 percent 
in 1997, while the percentage of heroin admissions for inhalation has 
increased from 19 percent in 1992 to 28 percent in 1997 (National 
Admissions to Substance Abuse Treatment Services: The Treatment Episode 
Data Set (TEDS) 1992-1997). This is also a trend we are seeing at the 
local level. For example, last year in Philadelphia, 39 percent of the 
heroin treatment admissions were for snorting heroin.
    Now let me explain in a bit more detail, why these data are so 
alarming. Because of its chemical structure heroin is able to very 
rapidly enter the brain where it is actually converted into morphine. 
In this form, the drug rapidly crosses the blood brain barrier and 
attaches to the natural opioid receptors. By binding to these receptors 
the drug initiates its multiple physiological effects, including pain 
reduction, depression of heart rate, and the slowing of respiration. It 
is heroin's effects on respiration, in particular, that can be lethal 
in the case of heroin overdose. Heroin also acts on the brain's natural 
reward circuitry to produce a surge of pleasurable sensations.
    It is of course these pleasurable effects that cause people to take 
drugs basically, people like what drugs do to their brains. Research is 
showing that prolonged drug use can actually change, brains. These 
changes are thought to play an integral role in the development of 
addiction. Powerful new technologies are giving us even greater insight 
into these dramatic brain changes.
    This poster (POSTER 1) allows you to see morphine's effects on the 
brain. The bottom images demonstrate the fact that when heroin addicts 
are given 30 mg of morphine the brain's ability to metabolize glucose 
is significantly reduced. Glucose is what actually fuels the brain 
cells. In other words, heroin reduces brain activity in some regions of 
the brain.
    Understanding the neurobiology of addiction has led us to develop a 
number of effective tools to treat heroin addiction and to help manage 
the sometimes-severe physical withdrawal syndrome that accompanies 
sudden cessation of drug use. Of course we now know that withdrawal and 
physical dependence are only a minor part of the problem that must he 
addressed when treating heroin addicts. In fact, withdrawal symptoms 
can now be effectively managed through the use of modern medicines.
    But it is the compulsive drug seeking behaviors that we have 
defined as the essence of addiction, which must be addressed in a 
comprehensive treatment program. And many behavioral and 
pharmacological treatments are available, although not always widely 
used.
    For example, pharmacotherapies can be an important component of 
treatment for many addicts. Twenty-five years of NIDA-supported 
research have given us quite a number of effective medications to 
combat heroin addiction. For example, LAAM (levo-alpha-acetyl-
methadol), a newer drug for the treatment of heroin addiction was 
developed and is now available as a supplement to methadone. Both 
methadone and LAAM block the effects of heroin and eliminate withdrawal 
symptoms. Treatment with methadone requires daily dosing. LAAM blocks 
the effects of injected heroin for up to three days. Research has 
demonstrated that, when methadone or LAAM are given appropriately, they 
have the ability to block the euphoria caused by heroin, if the 
individual does in fact try to take heroin. Both methadone and LAAM, 
especially when coupled with a behavioral treatment component, have 
allowed many heroin addicts to lead productive lives.
    By the way, it is important to emphasize here that contrary to 
popular myth, methadone is not actually a substitute for heroin. 
Although it does bind to the same brain receptors, it acts dynamically 
in the brain quite differently from heroin. While heroin de-stabilizes 
the brain of the addict, methadone actually stabilizes the heroin 
addicts brain and behavior.
    In an effort to give treatment providers another effective tool to 
combat heroin addiction. NIDA is working with the Food and Drug 
Administration and the pharmaceutical industry to bring to market a new 
medication called buprenorphine-naxloxone. This medication has the 
potential for administration in less traditional environments, such as 
in physician's offices, thus expanding treatment to populations who 
either do not have access to methadone programs or are unsuited to 
them, such as adolescents. Buprenorphine would not be a replacement for 
methadone or LAAM, but yet another treatment option for both physicians 
and patients.
    Although we have some quite effective behavioral and 
pharmacological treatments in the clinical toolbox, many of the most 
recently developed science-based treatments have not found their way 
into normal practice settings, and we see that as a tremendous national 
need. This idea of bringing science-based treatments to those who are 
in need of treatment is fast becoming a reality, however. Recent 
advances in treatment research, coupled with the generous 
appropriations that NIDA received last fiscal year, have allowed the 
Institute to accelerate the launch of its much-anticipated and needed 
National Drug Abuse Treatment Clinical Trials Network. This Network 
will serve as both the infrastructure for testing science-based 
treatments in diverse patient populations and treatment settings, and 
the mechanism for promoting the rapid translation of new treatment 
components, into actual clinical practice in community settings 
throughout the nation.
    I am especially pleased to announce that one of the first five 
research nodes we have awarded resources to is the Delaware Valley 
Node, which will be centered at the University of Pennsylvania. This 
Node is affiliated with ten community treatment programs in the region 
including providers in the Thomas Jefferson Health System, The Belmont 
Center, Fresh Start, the Northeast Treatment Centers, the Robert Wood 
Jobnson Medical School-Mercer Trenton Addiction Sciences Center, the 
Philadelphia Health Management Corporation, the University of 
Pennsylvania Health System, the Rehab After Work Program, the Mercy 
Health System, Achievement Through Counseling and Development, and the 
Caron Foundation. The community treatment programs are in Pennsylvania, 
New Jersey and Delaware. It is in these patient populations that we 
will be testing some of the world's most promising behavioral and 
pharmacological treatments. In addition to being treated, these 
patients will also be helping researchers determine what works best for 
whom and under what circumstances. We have also established Research 
nodes in four other regions of the country to feed into the Network.
    We hope to expand this Network each year. When complete, the 
network will consist of 20 to 30 regional research treatment centers or 
nodes.
    Developing and bringing new medications and behavioral therapies to 
populations that are in need is just one aspect of a comprehensive 
solution we must continue to take to solve this Nation's drug problem. 
Because addiction is such a complex and pervasive health issue, we must 
include in our overall strategies a comprehensive public health 
approach, one that includes extensive education and prevention efforts, 
adequate treatment and aftercare services, and research. Twenty-five 
years of research has provided us with effective prevention and 
treatment strategies that can be used to combat heroin addiction, as 
well as other drug problems. Research has shown that these strategies 
are effective in reducing not only drug use but also in reducing the 
spread of infectious diseases such as HIV/AIDS, hepatitis, and in 
decreasing criminal behavior.
    Thank you once again for the opportunity to testify at this 
hearing. I will be happy to answer any questions you may have.
[GRAPHIC] [TIFF OMITTED] T1969.001

[GRAPHIC] [TIFF OMITTED] T1969.002

    Senator Biden. Dr. O'Brien, would you, before you begin 
your testimony, tell the panel a little bit about your 
operation up there. I was incredibly impressed, if you would be 
willing to speak just a moment about what you are doing.

           STATEMENT OF CHARLES O'BRIEN, M.D., PH.D.

    Dr. O'Brien. Thank you, Senator Biden and Senator Specter. 
I appreciate the opportunity to be able to tell you about our 
program because we actually began at the Philadelphia VA 
Medical Center in 1971, during the height of the Vietnam War. 
Actually, I was still in my Navy uniform when I went around the 
country visiting treatment programs to try to find out what was 
known then about addiction treatment, and then we started our 
program as a research program and we have done basic research 
on all of the major drugs of abuse, including heroin, cocaine, 
amphetamines, alcohol, nicotine, marijuana, and the 
hallucinogens.
    We now treat about 10,000 veterans a year, different 
veterans in the Philadelphia area, including linkages with the 
Wilmington VA Medical Center, and we also treat nonveterans 
through our University of Pennsylvania Clinic, and all of this 
is with the idea toward building better treatments. So we come 
up with ideas, we test them in controlled trials, and those 
things that work, then we write about them and try to get other 
people to use them. Now with the clinical trials network that 
Dr. Leshner just talked about, we will be testing these new 
treatments in more and more programs throughout the Delaware 
Valley.
    Senator Biden. I was incredibly impressed when you took me 
through. I advised, you probably had it done, but the press who 
has an interest in whether or not there is any real serious 
work going on in terms of treatment in the region, I do not 
know what your policy is, and I may be inviting chaos for you, 
but I really would invite you to take a look at this program at 
the Veterans Hospital up there and the nonveteran portion at 
the University of Pennsylvania. It is really impressive, truly 
impressive, I think. Anyway, thanks for coming down and I look 
forward to hearing your testimony.
    Dr. O'Brien. Thank you for the nice words. I will try to be 
brief, because, as I mentioned, our work includes all of the 
drugs of abuse, and in order to put it in its proper 
perspective, I have to emphasize that the legal drugs, namely 
nicotine and alcohol, actually produce more problems, more 
deaths, and more addiction among our young people and older 
people than the illegal drugs. I could tell you a lot about 
cocaine, but there is some good news, as you implied in your 
opening statement, because cocaine problems have improved a 
great deal. But let me focus on heroin.
    There is good news to report about the availability of new 
and effective treatments for heroin addiction, but there is 
also much grim news to report. Philadelphia, and presumably the 
surrounding areas in Delaware, has the sad distinction of 
having the most potent heroin in the country, according to DEA 
figures over the past several years, and I think that Mr. 
Nelson will show you some slides that support what I am telling 
you.
    When we founded our program in 1971, and continuing until 
the 1990's, the average purity of a bag of heroin was around 
four percent, and actually, we have research on testing for 
physical dependence. Some of the bags were zero, they were cut 
so much. But 4 percent was the average. Lately, it has 
increased to as much, as you said, as much as 85 to 90 percent, 
with most bags falling in the 70 percent range. In other parts 
of the East, the figures are only slightly lower. Thus, heroin 
per milligram is cheaper than ever in modern history. This 
increased purity is reflected in overdoses and in high levels 
of physical dependence in patients presenting for treatment.
    Moreover, we are seeing increasing numbers of young people 
starting on heroin that is snorted or smoked, as Dr. Leshner 
said. It is so potent that they are able to get effects by 
smoking it or placing it in their noses rather than being 
obliged to inject it. This is exactly what I found in my work 
as a U.S. Navy physician during the Vietnam War. Our current 
heroin purity and use patterns are similar to the tragic 
situation in Vietnam.
    More middle class and suburban youths are being introduced 
to heroin. We have been studying the Philadelphia needle 
exchange program, which, incidentally, has shown efficacy in 
reducing the spread of infection, and we were shocked to find 
on the first day of our study a group of students from our own 
university who came to get needles for their heroin injections. 
These were outstanding students who were hooked on heroin.
    In spite of this increased severity and spread of heroin 
addiction, we have long waiting lists for methadone treatment 
and some politicians calling for reduced methadone treatment. 
Fortunately, we have a very effective spokesperson in General 
Barry McCaffrey, who has eloquently made the case for more 
methadone availability. He has also spearheaded the drive for 
making buprenorphine and other effective medication available 
with fewer restrictions than are now imposed on methadone.
    The current situation is ironic. We have more effective 
treatments than ever before. In the area of medications, thanks 
to NIDA-supported research and introduced by this committee, as 
Senator Biden indicated, we have methadone, LAMM, 
buprenorphine, buprenorphine naloxone in combination, and 
naltrexone, including a long-acting depot preparation now in 
clinical trials. In other words----
    Senator Biden. Explain what that means, because that is 
fascinating.
    Dr. O'Brien. Naltrexone is a nonaddicting medication that 
sits on opiate receptors and blocks them. So a person who has 
been detoxified from heroin can be given this medication and 
they cannot get readdicted. They are absolutely blocked. It 
works great for motivated people. I have had some physicians 
who were using opiates illegally and I treated them and I put 
them on naltrexone and they have taken it for as long as 15 or 
20 years on a daily basis, feeling normally, but they cannot 
relapse, even though they have to work with opiates every day 
in the hospital. It would be great for heroin addicts, but they 
tend not to take it regularly, because you have to take it 
every day or two.
    With this new preparation, you give an injection with a 
needle and it lasts for 30 to 60 days. We now have, and this is 
perhaps news to you, Senator, we have three pharmaceutical 
companies who are competing with one another to develop this 
depot naltrexone, and we have all three preparations in various 
stages of production right now. I am sure that one of them is 
going to win, and that will be terrific for us. That means that 
people who are motivated after they are detoxified, we give 
them this injection, and then they cannot change their mind, at 
least for a month or two, and during that month or two, we can 
work with them. So this will be a big event.
    Senator Biden. In this report back in 1989, I suggested 
that maybe a way to deal with people on probation, a condition 
of probation is to return once a month and have this depot. The 
DuPont Company was developing at that time kind of like a tiny 
little time capsule, as they talk about on the TV. At any rate, 
it has phenomenal potential.
    Dr. O'Brien. We actually did a study in probationers in 
Philadelphia, in the Philadelphia Federal Probation Office, 
randomly assigning them, one group to naltrexone orally, 
another group to treatment as usual. We had twice the 
reincarceration rate in the control group as in the group 
getting naltrexone. In other words, we more than cut it in 
half, going back into prison, because these were people who 
have heroin-related crimes before.
    Let me just conclude. I know you are short on time. So we 
have strong evidence, also, for the efficacy of counseling and 
psychotherapy in combination with medications that can produce 
impressive rehabilitation of heroin users. But in the treatment 
area, we have an inadequate number of slots and an inadequate 
funding of the slots that do exist. Methadone has only minimal 
benefits, compared to the much greater effects of counseling 
and psychotherapy when given with methadone or other medical 
treatment.
    So, in other words, we cannot get away cheaply by just 
giving the drug. These people have a lot of problems besides 
the medical ones, and so they need the counseling, as well. 
Unfortunately, despite the rhetoric, we really do not have 
enough funding for treatment.
    I would like to thank you very much for giving me this 
opportunity to speak on these things and I would be delighted 
to respond to your questions.
    Senator Biden. Thank you.
    [The prepared statement of Dr. O'Brien follows:]

             Prepared Statement of Charles O'Brien, MD, PhD

                             1. orientation
    Our clinical program treats about 10,000 veterans each year with 
mental disorders, about a fourth have primary substance use disorders, 
and another third have combined substance abuse with other mental 
disorders. The treatment program, one of the largest and oldest in the 
VA has received the Award of Excellence from VA Headquarters and is a 
National Center of Excellence for Substance Abuse Training. We were 
also recently awarded a Mental Illness Research, Education and Clinical 
Center (MIRECC) with a substance abuse theme. We teach medical 
students, residents and fellows and we host a national training program 
for minority medical students in treatment of substance use disorders.
                              2. research
    Our research program is funded by National Institute on Drug Abuse 
(NIDA), Dept. Veterans Affairs(DVA) and National Institute on Alcohol 
Abuse and Alcoholism (NIAAA). In studies dating back to the early 
1970s, our group has been credited with the development of several new 
treatments for addiction, new understanding of the brain mechanisms 
underlying addiction and for inventing the standard measuring 
instrument for measuring the severity of addiction used throughout the 
world. Our research deals with the four main addicting drugs: nicotine, 
alcohol, heroin and cocaine. While addiction to the two legal drugs, 
nicotine and alcohol, is responsible for many more deaths and economic 
loss than heroin and cocaine, my remarks will emphasize the current 
facts concerning the two illicit drugs, cocaine and heroin.
                               3. cocaine
    There is good news to report. New cases of cocaine abuse and 
dependence have fallen off dramatically. Crack cocaine dealers have 
been quoted as saying that they can no longer make a living selling 
this drug. Cocaine in both crack and powdered forms is still widely 
available and cheap in our area, but fewer people are buying it. This 
development is not surprising since previous stimulant epidemics have 
been self-terminated in the past, both in this country and abroad. We 
would like to give credit to drug prevention programs, but there are 
important other factors. We believe that decline of new users is 
related to the fact that cocaine produces destruction of lives fairly 
quickly and thus prospective new users can see the deterioration in 
their older friends and relatives and decide not to take up the drug 
themselves. Heroin, in contrast, is less toxic. It simply mimics the 
effects of normal hormones that all of us have and produces social 
destruction more gradually. The medical consequences of heroin use are 
mainly indirect based on infections such as AIDS and hepatitis.
    Unfortunately, those already dependent on cocaine have generally 
not been able to stop permanently. Thus we see many chronic cocaine 
users who continue to relapse after treatment is stopped. They also 
have developed chronic psychiatric and medical disorders such as heart 
disease. We are heavily engaged in NIDA supported research to develop 
new medications and behavioral treatments for cocaine addiction. 
Currently we are testing several promising new medications including a 
cocaine vaccine and we have already published studies of effective 
psychotherapy for cocaine dependent people. Our research group has 
recently been awarded a special center grant for conducting clinical 
trials in community treatment programs. Our network involves ten 
treatment programs in the Delaware Valley including the Northeast 
Treatment Center which has clinics in the Wilmington area.
    I would also like to point out that the legislation for the NIDA 
medications development program was introduced by Senator Biden and it 
resulted in funding for one of the most successful drug research 
programs in our history. The report on development of medications for 
addictive disorders by the Institute of Medicine of the National 
Academy of Sciences cited the remarkable benefits of this legislation.
                               4. heroin
    While there is good news to report about the availability of new 
and effective treatments for heroin addiction, there is also much grim 
news to report. Philadelphia and presumably the surrounding areas in 
Delaware has the sad distinction of having the most potent heroin in 
the country according to DEA figures over the past two years. When we 
founded our treatment program in 1971 and continuing until the 1990s, 
the average purity of a bag of heroin was 4 percent. Lately it has 
increased to as much as 85 percent with most bags tested falling into 
the 70 percent range. In other parts of the East, the figures are only 
slightly lower. Thus heroin per mg. is cheaper than ever in modern 
history. This increased purity is reflected in overdoses and in high 
levels of physical dependence in patients presenting for treatment. 
Moreover, we are seeing increasing numbers of young people starting on 
heroin as smokers or snorters. It is so potent that they are able to 
get effects by smoking it or placing it in their noses rather than 
being obliged to inject it. This is exactly what I found in my work as 
a navy physician during the Vietnam war. Our current heroin purity and 
use patterns are similar to the tragic situation in Vietnam.
    More middle class and suburban youths are being introduced to 
heroin. We have been studying the Philadelphia needle exchange program, 
which incidentally has shown efficacy in reducing the spread of 
infections, we were shocked to find on the first day a group of 
students from our own university who were coming to get needles for 
their heroin injections.
    In spite of this increased severity and spread of heroin addiction, 
we have long waiting lists for methadone treatment and some politicians 
calling for reduced methadone treatment. Fortunately, we have a very 
effective spokesperson in General Barry McCaffery who has eloquently 
made the case for more methadone availability. He has also spearheaded 
the drive for making buprenorphine, another effective medication, 
available with fewer restrictions than are now imposed on methadone.
    The current situation is ironic. We have more effective treatments 
than ever before. In the area of medications, thanks to NIDA-supported 
research, we have methadone, LAAM, buprenorphine, buprenorphine/
naloxone combination and naltrexone including a long acting depot 
preparation now in clinical trials. We have strong evidence for the 
efficacy of counseling and psychotherapy in combination with 
medications that can produce impressive rehabilitation of heroin users. 
But in the treatment area, we have inadequate number of slots and 
inadequate funding of the slots that do exist. Methadone alone has only 
minimal benefits compared to the much greater effects of counseling and 
psychotherapy for patients in methadone or other medical treatment.
                             5. other drugs
    There are, of course, other drug problems that I don't have time to 
discuss. Marijuana is a problem for some young people although research 
shows that compared to the drugs cited earlier, the rate of dependence 
is low. Ecstasy or MDMA is a problem, less so in this country than in 
Europe, but still worthy of attention. Solvent abuse receives little 
publicity in this part of the country, but those of us in the Delaware 
Valley were saddened last spring to read of five young girls from the 
same high school killed in an auto accident attributed to solvent use. 
Benzodiazepines, sleeping pills and other prescription drugs can be 
associated with abuse and we also have some patients with such 
problems. In terms of national policy, however, it would appear that 
our prevention and treatment efforts should be directed to the four 
major drugs that I cited earlier: nicotine, alcohol, cocaine and 
heroin. Among high school and college students, I must remind you one 
more time, that the overall negative impact of nicotine and alcohol 
from binge drinking far outweighs the impacts of the illegal drugs.

    Senator Biden. Mr. Nelson, welcome.

                 STATEMENT OF WILLIAM R. NELSON

    Mr. Nelson. Thank you, sir. Good morning. Good morning, 
Senator Specter. Thank you for the opportunity to participate 
in this important hearing and to speak to you today about the 
heroin situation in Pennsylvania and Delaware and particularly 
DEA's efforts to combat the influx of heroin in this area.
    DEA's Philadelphia Field Division is responsible for 
enforcing the Federal laws in the States of Pennsylvania and 
Delaware. DEA staffs seven offices in Pennsylvania and 
Delaware, with more than 250 special agents, task force 
officers, intelligence analysts, and support personnel. This 
morning, we would like to outline production trends and the 
international trafficking routes of heroin to the United States 
and specifically to this region; and to also discuss the 
national, local, and regional trends in the heroin situation in 
terms of heroin trafficking, availability, use of heroin, 
prices and purities of heroin that have been observed to this 
date; also to describe DEA's current efforts to combat heroin 
traffic and abuse in this region, which are often conducted in 
cooperation with Federal, State, and local law enforcement 
agencies.
    The supply of heroin to the United States originates from 
four distinct production areas around the world. The United 
States may be the only country in the world that is supplied by 
each of these four source areas, Southeast and Southwest Asia, 
Mexico, and most importantly in this region, South America, and 
in particular, Colombia.
    Most, if not all, of the heroin seized in Pennsylvania and 
Delaware originates in South America. I have a chart that will 
display the highlights of the typical routes used to transport 
heroin from Colombia to the Caribbean and Mexico to the East 
Coast of the United States. The next figure highlights the 
regional trafficking routes from what we believe to be a source 
city for Delaware, which would be Philadelphia.
    Colombian heroin is typically transported to the United 
States via couriers who smuggle one or two kilograms at a time 
aboard commercial aircraft flights directly to cities such as 
Miami and New York. Couriers employ a variety of means to 
smuggle heroin into the United States, which include the use of 
false-sided suitcases, body packs, and internal body carries.
    Due to the increased law enforcement efforts at Eastern 
ports of entry, South American heroin traffickers are smuggling 
heroin across the U.S. Southwest border into Texas. New York, 
Miami, New Jersey, and Puerto Rico have been identified as 
primary source areas for the South American heroin found in the 
Pennsylvania-Delaware region.
    New York-based Colombian groups are primarily responsible 
for wholesale distribution of heroin to the Philadelphia and 
Delaware area. The Colombians saturated the market with high-
purity heroin, using strategic marketing techniques such as 
providing free samples of heroin with shipments of cocaine, 
allowing customers to take heroin on consignment, and lowering 
prices. Regional investigations have shown that distributors 
purchase retail quantities of heroin in Philadelphia and then 
sell them on the streets of smaller cities and towns throughout 
Pennsylvania and Delaware. Philadelphia-based Hispanic, 
primarily Dominican, led organizations are active in this 
particular type of distribution.
    There are two distinct heroin markets in the United States, 
one on the Eastern side of the Mississippi. In the East, high-
purity white heroin from South America is predominately 
available, while in the West, lower-purity Mexican black tar 
and brown heroin are predominately available.
    Heroin users, both in this region and throughout the 
Northeastern United States generally represent all socio-
economic classes and age groups. The combination of heroin's 
readily available low prices and high purity has made it 
attractive to many new, nontraditional users. For example, many 
young middle-class users are now able to snort and smoke heroin 
because of the high purity instead of injecting it. Many of 
these users are lulled into a false sense of security, 
believing that because they inhale heroin, they are less likely 
to become addicted.
    According to the DAWN information, the annual number of 
heroin-related emergency room visits was slightly over 10,000 
in 1978, as we see on the chart. In 1990, the number of heroin-
related emergency room visits was roughly in the 33,000 range. 
By 1997, that number had more than doubled, to approximately 
70,000.
    Nationally, the number of heroin-related emergency room 
visits by young people aged 12 to 17 increased significantly 
since 1989. As we see in this particular chart, it is up 
significantly from 1989 to 1997 with the age group of 12- to 
17-year-olds.
    During 1998, the price of heroin emanating from South 
America ranged from $50,000 to $200,000 per kilogram. In this 
region, gram quantities of high purity South American heroin 
sells for up to $100 in Philadelphia and between $100 and $300 
in Delaware and other regions of Pennsylvania.
    Studies indicate that heroin purity has increased tenfold 
since 1979. In the 1980's, heroin purity levels averaged 
between 1 and 10 percent. Today, in some cities, average purity 
levels exceed 70 percent. This significant rise in purity 
corresponds to the increased availability of higher-purity 
South American heroin, especially in the Northeastern part of 
the United States.
    In this particular figure, Figure 5 on the easel shows a 
20-year trend to where heroin prices have decreased while 
purities have increased. Inexpensive and highly pure South 
American heroin has flooded the Pennsylvania and Delaware 
market. In 1999, retail heroin purities ranged from 54 percent 
in Boston to 60 percent in Newark and 63 percent in New York 
City. Yet, in Philadelphia, the average retail heroin purity 
was 71.7 percent. The chart on the easel will reflect the 
national average compared to the Philadelphia-Delaware area. In 
fact, Philadelphia has reported higher heroin purities than 
anywhere else in the nation in 4 of the last 5 years.
    Heroin brand names are used by dealers as a marketing tool 
to increase their share of the market. Brand names change 
frequently, and the popular ones are sometimes imitated by 
competing trafficking organizations. Brand names help identify 
the product of a particular organization and are sought after 
by users to ensure they are buying high purity, high quality 
heroin.
    Senator Biden. Mr. Nelson.
    Mr. Nelson. Yes, sir.
    Senator Biden. Is the heroin I have on this table here, 
``Bad Boy,'' ``Boss,'' ``Pac Man,'' ``White Bear''----
    Mr. Nelson. ``Turbo Dead Com''?
    Senator Biden. ``Murder One,'' yes.
    Mr. Nelson. They are brand names.
    Senator Biden. And they are brand named particularly to 
target to teenagers and younger people, is that the reason?
    Mr. Nelson. In my opinion, yes, sir. The brand name is a 
trademark, as I stated, and that is a typical example of a 
trademark. I cannot see it from here, but----
    Senator Biden. Let me pick one up and read. ``Land Rover.''
    Mr. Nelson. Yes.
    Senator Biden. Now, this is actually heroin?
    Mr. Nelson. I would suspect it is, sir. I think one of the 
officers had it there.
    Senator Biden. What would the consumption of what is in 
this bag, what would the consumption of this amount of heroin 
do in terms of giving a person the affected high that they 
want, or however you characterize it?
    Mr. Nelson. The injection method, with that particular 
brand name, if it is the high-purity heroin we have in 
Philadelphia, the injection method is the fastest, intravenous 
method. If it is snorted, the effects take 15 to 20 minutes and 
will last for 4 to 5 hours.
    Senator Biden. Four to five hours?
    Mr. Nelson. Yes.
    Senator Biden. Thank you. And how much did this cost?
    Mr. Nelson. Ten dollars. As I was saying, typically, stamp 
bags of user amounts of heroin sell from between $10 and $20. 
DEA Philadelphia intelligence and the Philadelphia Police 
Department maintain databases containing thousands of brand 
names, such as ``Turbo,'' ``Dead Com,'' ``Ready to Die,'' and 
``One Half Dead.''
    It is not just adults who are selling heroin. In August of 
1999, a Delaware newspaper reported that a 14-year-old young 
man from Wilmington was arrested after he was found with 35 
packets of heroin.
    Senator Biden. By packets, you mean something this size?
    Mr. Nelson. Yes, sir, individual packets, and, of course, 
the larger amounts are bundles or bindles.
    Over the last decade, DEA has arrested numerous heroin 
distributors and immobilized scores of large trafficking 
organizations. In fiscal year 1998, the last full year in which 
statistics are available, DEA arrested 32 percent more 
individuals nationwide in heroin investigations than in 1995.
    To address the threat posed by Colombian and Dominican 
trafficking groups, the DEA and the Philadelphia Field Division 
has focused its resources against the communication networks of 
the Colombian sell managers. Simultaneously, DEA has targeted 
surrogate groups from the Dominican Republic and Puerto Rico 
who comprise the ever-growing conglomerate of distribution 
networks in our area. Hopefully, these areas will help us with 
an increased ability to build prosecutable cases against the 
leadership of the Colombian and Dominican syndicates.
    A cornerstone of DEA's mission has been working closely 
with other Federal, State, and local enforcement agencies. We 
believe it is a win-win situation to pool our resources, 
expertise, and intelligence to attack a common enemy. We 
benefit from local investigators' knowledge of the methods of 
known drug dealers within their communities.
    One way DEA and other law enforcement agencies work 
together is through our DEA State and local task force program. 
Another way in which DEA assists State and local enforcement is 
through its newly formed mobile enforcement teams. DEA field 
divisions deploy mobile enforcement teams at the request of 
local enforcement officials who are confronting serious drug-
related crime and violence in their areas. Since the program's 
inception within our division in 1995, we have worked with the 
cities of Wilmington, DE, as well as in Philadelphia as part of 
Operating Sunrise, Reading, Allentown, Clairton, Easton, 
Norriston, and Bristol, PA. Our MET Program has posted 
impressive results both in terms of drug seizures and the 
arrests of violent drug traffickers.
    DEA Philadelphia has recently placed more emphasis and 
attention to heroin cases and trafficking organizations and has 
recently formed an enforcement group specifically designed and 
dedicated to investigate drug trafficking organizations whose 
members are of Caribbean nationals. As a result, there has been 
more than a four-fold increase in arrests in heroin cases since 
1994 through 1999. We have also removed more heroin for that 
fiscal year period of 1994 through 1999, and the number of new 
heroin investigations has also increased almost 300 percent.
    One recent investigation stands as a prime example of DEA's 
emphasis on heroin trafficking organizations. On November 3, 
1999, a Federal grand jury in the Eastern District of 
Pennsylvania returned a 61-count indictment charging 29 
individuals with participating in a heroin, cocaine, and crack 
cocaine distribution organization.
    This indictment and the recent arrest of several of the 
indicted individuals were results of more than a 2-year-long 
investigation into the Darien Street organization, as it is 
known in the parlance in Philadelphia, that organization, which 
allegedly used an entire Philadelphia city block to conduct 
illicit operations for more than 15 years. This organization 
operated around the clock, selling multikilogram quantities of 
heroin, cocaine, and crack cocaine on a weekly basis, 
generating over that particularly period of time more than $20 
million in proceeds. The street on which this organization 
operated was also within 1,000 feet of a Philadelphia middle 
school.
    DEA stresses the need for all segments of the community, 
law enforcement, schools, government, churches, the media, 
business, and industry, to work together in mounting a well-
orchestrated response to local drug-related issues. The 
Philadelphia Field Division has a very active demand reduction 
program, reaching out to schools, civic groups, and community 
coalitions in cities and towns throughout our area of 
responsibility.
    Senator Biden. Mr. Nelson.
    Mr. Nelson. Yes, sir.
    Senator Biden. I want to hear everything you have to say. 
Senator Specter is going to have to leave to go to Washington 
shortly because his appropriations bill is part of this final 
negotiation which we are going to figure out by Wednesday, 
hopefully, and I want to give him a chance to ask questions 
first. So if you could summarize the remainder of your 
statement, then I will pick up on, when he leaves, on some of 
the detail of it, if I may.
    Mr. Nelson. I think we could conclude. Thank you.
    Senator Biden. Thank you.
    [The prepared statement of Mr. Nelson follows:]

                Prepared Statement of William R. Nelson

    Senators Biden and Specter: I thank you for the opportunity to 
participate in this important hearing and speak to you today about the 
heroin situation in Pennsylvania and Delaware and DEA's efforts to 
combat the influx of heroin to this area. I am accompanied today by 
Resident Agent-in-Charge Paul Maloney of our Wilmington office.
    DEA's Philadelphia Field Division is responsible for enforcing the 
federal narcotics laws in the states of Pennsylvania and Delaware. In 
Delaware, we have offices in Wilmington and Dover, while in 
Pennsylvania, the cities of Philadelphia, Harrisburg, Pittsburgh, 
Allentown, and Scranton house DEA offices. DEA staffs these offices 
with more than 100 special agents and another hundred support 
personnel. Additionally, we have 69 Task Force Officers working in 
various cooperative enforcement efforts and a number of contracted 
personnel assisting with computer support and administrative functions.
    Besides using our own resources, I believe that it is vital to 
DEA's mission to work in concert with other federal, state and local 
law enforcement agencies. I will describe our cooperative efforts in 
greater detail when I outline our response to the growing heroin 
threat.
    This morning I would like to:

  <bullet> Outline production trends and the international trafficking 
        routes of heroin to the United States and, specifically, to 
        this region,

  <bullet> Discuss the national and local (or regional) heroin 
        situations in terms of heroin trafficking, availability and 
        abuse of heroin, and prices and purities of heroin observed to 
        date, and

  <bullet> Describe current DEA efforts to combat heroin trafficking 
        and abuse in this region, which are often conducted in 
        cooperation with other federal, state, and local law 
        enforcement agencies.
                           trafficking trends
    The supply of heroin to the United States originates from four 
distinct production areas around the world. The United States may be 
the only country in the world that is supplied by each of these four 
source areas: Southeast Asia (principally Burma), South America 
(Colombia), Mexico, and Southwest Asia-Middle East (Afghanistan, 
Turkey, Pakistan, and Lebanon).
    Most, if not all, of the heroin seized in Pennsylvania and Delaware 
originated in South America. Figure one (1) highlights typical routes 
used to transport heroin from Colombia, through the Caribbean and 
Mexico, to the East Coast of the United States. Figure two (2) 
highlights regional trafficking routes.
    The most common method of transporting Colombian heroine to the 
United States is via couriers, who typically carry one to two kilograms 
aboard commercial air flights directly to cities such as Miami and New 
York. Couriers employ a variety of means to smuggle heroin into the 
U.S., which include the use of false-sided suitcases, body packs, and 
internal body carriers. However, increased law enforcement efforts at 
eastern ports-of-entry forced South American heroin traffickers to find 
alternative routes. Recent investigations have shown that Colombian and 
other Latin American couriers are smuggling heroin across the US 
southwest border into Texas.
    DEA uses what is known as the Heroin Signature Program to combine 
scientific, chemical profiting of heroin samples with investigative 
data and intelligence to determine what amounts of heroin are entering 
the U.S. from what source areas. In the early 1990s, the Heroin 
Signature Program reported that Southeast Asian heroin dominated the 
national heroin market. Since 1993, South American heroin has been 
increasingly reported, to the point where, in 1998, 65 percent of the 
heroin seized nationally originated in South America.
    Cheaper, higher purity, South American heroin is mainly available 
in the east. It is for this reason that the DEA Philadelphia Field 
Division consistently reports the availability of inexpensive, high-
purity heroin.
    New York and Miami, along with New Jersey and Puerto Rico, have 
been identified as primary source areas for the South American heroin 
found in the Pennsylvania/Delaware region. New York-based Colombian 
groups are primarily responsible for wholesale distribution of heroin 
to the Philadelphia area.
    Colombians saturate the market with new, high-purity heroin. using 
strategic marketing techniques. For example, to increase their market 
share, Colombians allowed heroin customers to take whole quantities on 
consignment and also forced cocaine wholesale customers to accept 
quantities of heroin along with their shipments as a condition of doing 
business. Also, they build clientele by dropping the price so low, that 
the heroin can be purchased for less.
    Regional investigations have shown that distributors purchase 
retail quantities of heroin in Philadelphia and then sell it in on the 
streets of smaller cities and towns throughout Pennsylvania and 
Delaware. Philadelphia-based Hispanic, primarily Dominican-led, 
organizations are active in this type of distribution activity. In 
fact, the Philadelphia Field Division recently created a dedicated 
enforcement group to address the trafficking activities of these 
organizations.
    The high availability of heroin in Philadelphia allow traffickers 
to supply users in the urban areas of Harrisburg, Lancaster, Lebanon, 
and York, as well as the Scranton/Wilkes Barre metropolitan region. 
Northern Delaware, including the cities of Wilmington and Newark, is 
the primary region of heroin abuse and distribution in Delaware.
                           availability/abuse
    There are two distinct heroin markets in the U.S., demarcated along 
the Mississippi River. In the east, high-purity white powdered heroin 
from South America is predominantly available, while in the west, lower 
purity Mexican ``black tar'' and brown heroin are predominantly 
available.\1\
---------------------------------------------------------------------------
    \1\ Source: National Narcotics Intelligence Consumers Committee. 
The NNICC Report 1997 page 63.
---------------------------------------------------------------------------
    As previously mentioned, national trends indicate that smaller 
urban and rural areas are no longer isolated from the heroin problem. 
These areas are supplied by traffickers who travel to larger 
metropolitan areas to purchase retail quantities of heroin for street 
sales.
    Pennsylvania and Delaware are not exempt from this trend. Heroin 
has been and remains readily available in metropolitan, suburban, and 
rural areas of Pennsylvania and Delaware. Local distributors from 
northern Delaware, and the Pittsburgh, Harrisburg, Allentown, and 
Scranton areas of Pennsylvania purchase heroin in Philadelphia and 
transport it back to their own areas to be sold on the street.
    Heroin users, both in this region and throughout the northeastern 
U.S., generally represent all socioeconomic classes and age groups. The 
combination of heroin's ready availability, low prices and high purity 
has made it attractive to many new non-traditional users. For example, 
many young middle-class users are now able to snort and smoke heroin 
because of the high purity instead of injecting it, which is the 
traditional, yet higher-risk method of administration. Reports indicate 
that 50 percent of users inject, while the other 50 percent snort 
heroin.
    According to the Drug Abuse Warning Network (DAWN) and as shown on 
figure three (3), the annual number of heroin-related emergency room 
visits was slightly over 10,000 in 1978. In 1990, the number of heroin-
related emergency room visits was roughly 33,000. By 1997, that number 
had more than doubled, to about 70,000. Nationally, the number of 
heroin-related emergency room visits by young people (age 12 to 17) 
also increased significantly since 1989. Figure four (4) shows this 
dramatic increase.
    The ability to snort or smoke, rather than inject, undoubtedly 
played a role in the increase of heroin abuse by teenagers. Many of 
these users are lulled into a false sense of security believing that 
because they inhale heroin, they are less likely to become addicted to 
it. The teenagers also believe that they are safe from, acquiring 
diseases, such as AIDS or hepatitis, which are associated with the use 
of needles. As a result we are seeing a rise in first-time heroin 
users.
                          prices and purities
    During 1998, the price for a kilogram of South American heroin 
ranged from $50,000 to $200,000 nationally. In this region, gram 
quantities of high-purity, South American heroin sold for a price up to 
$100 in Philadelphia and between $100 and $300 in Delaware and other 
regions in Pennsylvania. This pricing reflects the trend where retail 
quantities of heroin are purchased in Philadelphia for sale in smaller 
urban and rural areas throughout Delaware and Pennsylvania.
    The DEA's Domestic Monitor Program (DMP), a program where retail 
quantities of heroin are regularly purchased in major U.S. cities to 
collect data on the price, purity, and origin of the heroin, indicated 
that heroin purity has increased tenfold since the program was 
initiated in New York City in 1979. In the 1980s, heroin purity levels 
averaged between one and ten percent; today, in some cities, average 
purity levels exceed 70 percent. This significant rise in purity 
corresponds to the increased availability of higher-purity South 
American heroin, especially in the northeastern United States.
    Figure five (5) shows a 20-year trend where heroin prices have 
decreased while purities have increased.
    Inexpensive and highly pure South American heroin has flooded the 
Pennsylvania/Delaware market. In 1999, the DMP found that retail heroin 
purities ranged from 58.4 in Boston to 60.6 percent in Newark and 63.1 
percent in New York City. Yet, in Philadelphia, the average retail 
heroin purity was 71.7 percent, the highest of all DMP markets. 
Philadelphia has reported higher heroin purities than anywhere else in 
the nation in four of the last five years (see figure six). Again, the 
trends indicate that the high-purity heroin used in Delaware and 
Pennsylvania comes from Philadelphia.
    Heroin brand names are used by dealers as a marketing tool to 
increase their share of the market. Brand names change frequently and 
the popular ones are sometimes imitated by competing trafficking 
organizations. Brand names help identify the product of a particular 
organization and are sought after by users to ensure they are buying 
high purity, high quality heroin. Typically, stamped bags of user 
amounts of heroin sell for between $10 and $20. DEA Philadelphia 
intelligence and the Philadelphia Police Department maintain databases 
containing thousands of heroin brand names, such as ``TURBO'', ``DEAD 
CALM'', ``READY TO DIE'', and ``\1/2\ DEAD.''
    It is not just hardened criminals who are selling heroin with brand 
names. In August 1999, a Delaware newspaper reported that a 14-year old 
young man from Wilmington was arrested after he was found with 35 
packets of heroin, marked with the brand name ``LANDROVER.'' The young 
man was charged with distribution, among other charges.
                           enforcement/impact
    Over the last decade, DEA has arrested numerous heroin distributors 
and immobilized scores of large trafficking organizations. In fiscal 
year 1998, the last full year in which statistics are available, DEA 
arrested 32 percent more individuals nationwide in heroin cases than 
fiscal year 1995.
    To address the threat posed by Colombian and Dominican trafficker 
groups, the DEA and the Philadelphia Field Division has focused its 
resources against the communications network of the Colombian cell 
managers. Simultaneously, DEA has targeted Surrogate groups from the 
Dominican Republic and Puerto Rico who comprise the ever-growing 
labyrinth of distribution network in our area. Hopefully, these efforts 
will provide us with an increased ability to build prosecutable cases 
against the leadership of the Colombian and Dominican, syndicates.
    A cornerstone of DEA's mission has been to work closely with other 
federal, state and local enforcement agencies. We believe it is a win-
win situation to pool our resources expertise, and intelligence to 
attack a common enemy. We benefit from local investigators' knowledge 
of the methods of known drug dealers within their communities.
    One way DEA and other law enforcement agencies work together is 
through state and local task forces. Within our division we have 
formalized joint task forces in Philadelphia and Pittsburgh. Also, a 
provisional task force operates both in Wilmington and Dover, Delaware.
    Another way in which DEA assists state and local law enforcement is 
through its Mobile Enforcement Team (MET) program. DEA field divisions 
deploy Mobile Enforcement Teams at the request of local law enforcement 
officials who are confronting serious drug-related crime and violence 
in their areas. Since the program's inception within our division in 
1995, we have worked with the cities of Wilmington, Delaware as well as 
Philadelphia (as part of Operation Sunrise), Reading, Allentown, 
Clairton, Easton, Norristown, and Bristol, Pennsylvania. Our MET 
program has posted impressive results, both in terms of drug seizures 
and in arrests of violent drug criminals.
    DEA Philadelphia has recently placed more emphasis on and attention 
to heroin cases and trafficking organizations. As a result, there has 
been more than a four-fold increase in arrests in heroin cases between 
fiscal year-1994 and fiscal year-1999. We also have removed nearly 
double the amount of heroin from the street in fiscal year-1999 than in 
fiscal year-1994. The emphasis on heroin investigations is also shown 
in the number of heroin cases opened. The number of new heroin 
investigations has increased more than 300 percent from 1995-1999.
    One recent investigation stands as a prime example of DEA 
Philadelphia's emphasis on heroin trafficking organizations. On 
November 3, 1999, a federal grand jury returned a sixty-one count 
indictment, charging twenty-nine individuals with participating in a 
heroin, cocaine, and crack cocaine distribution organization. This 
indictment and the recent arrest of several of the indicted individuals 
were the result of a more than two-year long investigation into the 
Darien Street Drug Organization, which allegedly used an entire 
Philadelphia city block to conduct illicit operations for more than 
fifteen years. This organization operated around the clock, selling 
multi-kilogram quantities of heroin, cocaine, and crack cocaine on a 
weekly basis, generating more than twenty million dollars in proceeds. 
The street on which this organization operated was also within 1000 
feet of a Philadelphia middle school.
    DEA stresses the need for all segments of the community--law 
enforcement, schools, government, churches, the media, business, and 
industry--to work together in mounting a well-orchestrated response to 
local drug-related issues. The Philadelphia Field Division has a very 
active demand reduction program, reaching out to schools, civic groups, 
and community coalitions in cities and towns throughout the region.
    It should be noted that other local agencies have taken proactive 
steps to counter the growing heroin abuse problems in their areas. The 
``Heroin Alert Program,'' sponsored by the New Castle County Community 
Services Unit is regionally, if not already nationally, recognized for 
its effective program to educate teenagers and the community at large.
                                closing
    In conclusion, heroin dependence is a chronic, relapsing disorder 
that exacts an enormous cost on individuals, families, businesses, 
communities, and nations. Along with prevention, education, and 
treatment, law enforcement is essential to reducing drug use in the 
United States.
    Law enforcement is our first line of defense. I believe that law 
enforcement efforts alone are not the only answers to the heroin 
problem. There is no magic formula for success and the problem will not 
disappear overnight. However, DEA, with our other federal, state and 
local partners, are prepared to fight this problem aggressively. With 
the concerted, cooperative efforts of the law enforcement community 
working together with our prevention, education and treatment 
professionals, we can take tremendous strides toward limiting the 
destructive effects of this scourge.
    I thank you again for the opportunity to speak to you today and 
have prepared copies of my prepared statement for you and for the 
record. I will be happy to answer any questions you may have.
                                 ______
                                 

     Biography of William R. Nelson Acting Special Agent-in-Charge 
      Philadelphia Field Division Drug Enforcement Administration

    William R. Nelson began his career in 1968 as a criminal 
investigator with the Drug Enforcement Administration's (DEA) 
predecessor agency, the Bureau of Narcotics and Dangerous Drugs (BNDD), 
in Baltimore, Maryland. Special Agent Nelson participated in the first 
federal drug telephone wiretap investigation in the country in 1968, 
authorized under the 1968 Omnibus Crime Bill. Special Agent Nelson was 
then assigned as the Regional Training Officer responsible for the 
training of over three thousand state and local police officers.
    In 1972, Special Agent Nelson was assigned to the Dallas Office of 
Internal Security, conducting internal security investigations in the 
southwest and south central regions of the US.
    In 1977, Special Agent Nelson was assigned to DEA Headquarters in 
Washington, DC where he coordinated all internal security 
investigations and office inspections.
    In 1979, Special Agent Nelson was appointed as chief of the DEA 
Headquarters State and Local Section's Office of Compliance, directing 
criminal investigators who investigated the illegal distribution of 
legally produced drugs. This program involved the administration of 
twenty-six programs in twenty-five states.
    From 1981 to 1988, Special Agent Nelson was assigned to the DEA 
Baltimore District Office as a supervisory special agent for a number 
of different enforcement groups, including state and local task forces.
    In 1988, Special Agent Nelson returned to DEA Headquarters as chief 
of the Contracting and Transportation Section, managing the procurement 
and transportation needs of DEA.
    In 1990, Special Agent Nelson was appointed chief of the State and 
Local Section at DEA Headquarters, where he supervised the 
administration of the DEA Organized Crime Drug Enforcement Task Force 
(OCDETF) program, the DEA task force program, the High Intensity Drug 
Trafficking Area (HIDTA) program, and the Weed and Seed Task Force 
program.
    In 1995, Special Agent Nelson was assigned as an assistant special 
agent-in-charge of the Philadelphia Field Division, where he supervises 
the administration of the division and a number of enforcement group 
operations.
    Since July 1999, Special Agent Nelson has served as the Acting 
Special Agent-in-Charge of the Philadelphia Field Division, pending the 
arrival of the newly appointed Special Agent-in-Charge in December 
1999.
    Special Agent Nelson is a graduate of the University of Baltimore 
and holds a Bachelor of Science degree in psychology.

    Senator Biden. Mr. Maloney.

                 STATEMENT OF THOMAS C. MALONEY

    Mr. Maloney. Senator Biden and Senator Specter, I am happy 
to be here and I am present here before you today representing 
SODAT-Delaware, Inc. Incorporated in 1971, SODAT is the oldest 
continuously operating outpatient substance abuse treatment 
center in the State of Delaware.
    During our most recent years of operation, SODAT has 
piloted several innovative approaches for working with 
substance abuse problems in our State. In anticipation of the 
increase in heroin abuse, resulting addictions in our 
community, SODAT launched a program in October 1993 that 
utilized opiate antagonist medication naltrexone. In fact, the 
person who headed that program, Lisa D'Angelo, is here today 
and is now working for Doctor O'Brien.
    During this program, we had many people attempt to 
stabilize in the program, but of the 12 clients that did, they 
were placed in an intensive outpatient treatment setting, 
monitored in their naltrexone dosage, and remain completely off 
all illicit substances, as evidenced by urine screen results 
and clinical consultations. Had these continued to use heroin 
at an average cost of $1,800 per month for heroin for each 
client, these clients would have consumed $21,600 worth of 
heroin, or a total of $259,200 in illegal drug purchases for 
any 12-month period.
    Criminal justice statistics indicate that fencing of stolen 
goods yields approximately 10 percent on the dollar. In other 
words, these 12 clients would have had to steal or deal over 
$2.5 million in property or drugs to support their addiction.
    In Delaware, the approximate annual cost for incarceration 
of an adult is $25,000. These figures stand in stark contrast 
to the $23.20 per diem per client costs for SODAT to operate 
the intensive treatment program. The annual per client cost is 
$8,468.
    Eighty-two percent of these clients completed the program 
with no new criminal charges. The program clearly demonstrates 
that the combination of intensive substance abuse treatment and 
case management services with the use of effective medications 
produces good outcomes.
    We at SODAT are very hopeful that the depot long-term 
naltrexone caplet or caplet implant or injection can be 
approved in the near future. This will allow for greater 
concentration on direct treatment services. Groups who can 
immediately benefit from this innovation include offenders 
released from incarceration by significantly reducing the 
likelihood of recidivism that results from drug use.
    In 1995, SODAT partnered with Delaware's family court under 
a grant through the City of Wilmington to implement a diversion 
and treatment program for illegal drug offending juveniles with 
no or minor prior criminal records. We expanded this program's 
geographic reach under a grant from the Department of Justice 
and funding from the State of Delaware to become Statewide. I 
believe we are the only Statewide juvenile drug program in the 
country.
    There are currently 188 clients in this program. Each 
client is provided with the option of participating in 
counseling and case management services or taking his or her 
case to trial. If the client succeeds in the program, the 
referring charges are dropped and there is no loss of the 
privilege to hold a driver's license.
    We have studied the participants in this program and their 
progress for over 3 years. Our most recent evaluation 
demonstrates a 21 percent less likelihood of recidivism among 
program graduates as compared to a control group. Those that do 
commit new crimes are far less likely to commit serious 
misdemeanors and felony offenses to the degree that we see in 
the control group.
    Program expenses range from $3,600 to $4,800 per year, as 
compared to the $70,000 to $77,000 it costs to incarcerate a 
juvenile in Delaware for a year. The hallmark is that 
prevention and early intervention works and works well.
    In conclusion, I cannot emphasize enough the innovation of 
directly partnering treatment and case management agencies with 
a judge to improve outcomes and reduce recidivism. This concept 
of therapeutic jurisprudence is mirrored in Attorney General 
Janet Reno's recent call for reentry courts for the recently 
released offenders.
    Senator Biden. Thank you very much.
    One brief introduction before you begin your questioning, 
Senator. I want you to know that this audience that is 
assembled here are the activists and the leaders in our 
community, including some of the mothers.
    I looked over here and I showed you a bag that was empty 
and I wondered, I said, oh, my Lord, I hope the bag wasn't full 
when it was here. My staff pointed out that some of the empty 
bags were provided by the mothers in the audience who found 
them in such places as washing machines and around the home.
    We have the Speaker of the Delaware House, Terry Spence, 
here, and I appreciate his presence here.
    We have Senator Margaret Rose Henry, one of the leaders in 
this community. Stand up, Margaret Rose, so everybody can see 
you.
    We also have former State Representative Herman Holloway, 
who, unlike many when we decide to leave office or we are 
defeated, fade away, he did not fade away. He was active in the 
community before and since. Herman, stand up and welcome. I 
want people to know you are here.
    We also have leaders here from the schools who run programs 
within the schools, like Mrs. Aiken, who is here and has been 
very involved with school counselors across the State and, 
actually, from my alma mater.
    And we have community leaders in the union movement here, 
like the president of the GM local, which is a very large 
local, Joe Brennan, who is here, along with others I will 
introduce later.
    I just want you to know that this is an audience of 
concerned and informed people here and I thank you all for 
coming.
    Senator.
    Senator Specter. Thank you very much, Senator Biden. That 
is a very impressive group, both on the podium and in the 
audience.
    Mr. Maloney, beginning with you, the statistics you cite 
are very impressive in terms of the costs of incarceration and 
the costs of prosecution compared to the costs of 
rehabilitation. We have never been able to put together a 
really comprehensive statistical set on how the rehabilitation 
works. I think it would be very useful if you could put all 
those figures together for us to show the economy on therapy 
and treatment contrasted with the prosecution and 
incarceration. You are well on your way there. But I think if 
you could put those together, I know I would be interested and 
I think our full Judiciary Committee would be interested.
    Mr. Nelson, you have gone through the sources of supply, 
Latin America being the principal for this area, and there have 
been massive efforts made to try to substitute crops in 
Colombia, Bolivia, all over Latin America, for more than a 
decade since we have authorized the use of military 
intervention, and we are still struggling in the Judiciary 
Committee and in the full Senate and the Congress for a 50/50 
split for so-called supply side, to try to eliminate sources 
and prosecute dealers, contrasted with 50 percent for the 
demand side.
    What is your view as to what the spilt ought to be? Do you 
think a 50/50 split would give enough emphasis to law 
enforcement on supply, to bring more emphasis to the demand 
side?
    Mr. Nelson. Senator, that is a difficult question for me to 
answer. Certainly, I advocate that the law enforcement 
component of the three-legged stool, if you will, is the first 
line of defense. The demand side certainly, I think by the 
testimony you have heard here today, needs support. We often 
said that if you have a three-legged stool, the enforcement 
portion of it is one leg, the educational leg, and, of course, 
the rehabilitation leg. Take one leg away and the stool will 
fall over.
    But to answer your question directly, I would not be in a 
position to----
    Senator Specter. Well, if you have a three-legged stool and 
education and rehabilitation are two legs, I think I just upped 
the percentage to two-thirds.
    Mr. Nelson. That is a good way to look at it.
    Senator Specter. Dr. Leshner, on the research, we have been 
very expansive and expensive in what we have allocated to the 
National Institutes of Health, mental health, drug abuse. Are 
you adequately funded? Would it be useful--the statement goes 
that there are ten doors and we open three or four of them to 
look behind on the grants. With a budget of $1.8 trillion, when 
we are allocating this year $15.6 billion and next year, if our 
allocation goes through, $17.9 billion, it is still a 
relatively small amount. My view is that the NIH is the crown 
jewel of the Federal Government, perhaps the only jewel. Could 
additional funding open some more of those doors and perhaps 
give us greater insight into drug abuse?
    Mr. Leshner. Absolutely, Senator, and we do very much 
appreciate the gracious largess that the Congress has given us. 
I should point out that the National Institute on Drug Abuse 
supports 85 percent of the world's research on drug abuse and 
addiction, and although the increase that is now proposed will 
be extremely useful, it still will only allow us to open some 
2.8 out of 10 of those doors and only allow us to expand our 
clinical trial network by four or five nodes.
    Senator Specter. Only 2.8 out of 10 doors?
    Mr. Leshner. That is right, Senator.
    Senator Specter. One of the reasons the closed doors remain 
so numerous, I understand that the more the grants go up, the 
more doors there are to open, more applications.
    Mr. Leshner. Well, actually, the number of applications----
    Senator Specter. Can we get ahead of this curve, or more 
funding will just produce more applications, which is fine in 
and of itself?
    Mr. Leshner. We are in a situation where the science of 
drug abuse and addiction has really expanded exponentially in 
the course of the last decade. When I came to NIDA 5 years ago, 
at the Society for Neuroscience meeting, there might be four 
posters on the neurobiology of addiction, and now there are 40 
posters, so that the opportunities are expanding at a 
tremendous rate. I would argue the accomplishments have also 
expanded.
    Senator Specter. The Genome Project is supposed to reach 90 
percent completion by next spring, that is, to identify the 
genes and have a road map of the human body. Does NIH's work on 
drug abuse or mental health offer any realistic likelihood that 
the gene can be identified for drug addiction to deal directly 
and target that specific cause of drug addiction?
    Mr. Leshner. There is no question that the individual 
differences to the vulnerability to becoming addicted has a 
very large genetic component to it, and in response to that, 
last year, actually, my institute mounted a major initiative 
focused on determining precisely what genes. It is unlikely it 
will be one gene, more likely to be an interaction among 
multiple genes, but we have mounted a major effort to go after 
that genetic determinant of vulnerability to being addicted.
    Senator Specter. We had the scientists in on Parkinson's, 
Alzheimer's, other diseases. The Parkinson's expert said that 
they were within 5 years of a cure, 10 years at the outside. If 
you scientists can give us something very tangible, Senator 
Biden and I have a better chance of working on our colleagues 
to appropriate. What would a realistic estimate be of 
identifying the genome for drug addiction in terms of a target 
date for solving that problem? We listened to Mayor Maloney on 
the costs. If we have a cost efficient target, perhaps we can 
get you some more money. Can you give me an encouraging time 
table?
    Mr. Leshner. One of the problems with addiction, of course, 
is that it is a multigenetic determinant and it is not going to 
be a single gene and, therefore, it will be more difficult to 
find. I am reluctant to give you a specific date, but I can 
tell you that in another domain, we have made tremendous 
advances in developing new medicines for the treatment of 
addiction and we are about to bring one out for opiate 
addiction, hopefully within the next 2 months, assuming it is 
approved by FDA, and then we are well on our way to the 
development of anticocaine medications.
    Senator Specter. I understand the success that you are 
finding with treatment modalities. I would urge you to take a 
look at the genome prospect. If you can realistically work on 
the issue of cure, it is a little different than the therapy or 
the medicine.
    Dr. O'Brien, your statement, many of your statements were 
profound. Many statements have been profound. But when you say 
that there are more problems from nicotine and alcohol than 
from all of the illegal drugs, we have been tackling the 
tobacco issue and trying to put the tobacco companies on a 
penalty line for teenage addiction. What suggestions would you 
have if you want to focus on nicotine and alcohol, contrasted 
with illegal drugs, as to what ought to be done by the medical 
profession, or more specifically, by the Congress?
    Dr. O'Brien. Of course, I do not want to diminish the 
importance of the illegal drugs, and we spend a lot of our 
effort, including genetics, which I could tell you about 
another time----
    Senator Specter. You have not diminished their importance. 
You have just elevated nicotine and alcohol.
    Dr. O'Brien. But I have to tell you that if you just look 
at the gross numbers, there are far more young people engaged 
in binge drinking and getting into serious problems with that, 
and also getting hooked on nicotine, and when you get hooked on 
nicotine at age 14 or 15, it is very, very hard to get off, and 
as we know, about 450,000 Americans die prematurely each year, 
which is, you know, about 10 or 20 times the amount of people 
who die from illegal drugs. So it is a huge disparity.
    I think the answer is prevention, and in prevention--for 
example, I just saw what they are doing in Florida, which I 
think is wonderful, because they are taking some of the tobacco 
money, the tobacco settlement money, and they are putting it in 
the hands of teenagers who are designing programs to get to 
teenagers on smoking directly themselves. I think that kids are 
really terrific at figuring out what works with kids.
    Senator Specter. Prevention education?
    Dr. O'Brien. Yes, sir.
    Senator Specter. Thank you very much. As Senator Biden 
stated, we are in the final stages of trying to conclude the 
budget in Washington and my bill on Labor, Health, Human 
Services, and Education is at its final stage and I am due 
there in the early afternoon, and perhaps I can do more good 
there on trying to get increased funding for some of these 
programs than I can do here by the next round of questions. And 
besides that, you have a very good questioner on tap. Thank 
you, Senator Biden.
    Senator Biden. Thank you very much, Senator Specter. I 
appreciate it. [Applause.]
    Gentlemen, I am going to ask you some questions that are 
pretty basic for professionals like yourselves and those who 
have been advocates, like myself, for the last 27 years, and 
some of the questions I clearly know the answer to, but I think 
it is very important that the folks understand what we are 
talking about here.
    Dr. Leshner, would you explain to the committee the 
difference between an antagonist and an antigen? What are we 
talking about here? What do we mean? What do we know about how 
the brain functions relative to the stimulation it receives 
from these various drugs? In this case, we are talking about 
opiates.
    I might make it clear. The reason I focused on heroin is 
not because heroin is the worst thing that is happening to 
America. If God came down and sat here and said, I promise you 
I can eliminate one form of addiction and only one, just 
eliminate one, I would pick alcoholism as the thing that 
affects the most malformed babies, affects the most accidents, 
affects the most cost, affects the most everything.
    But the difference here is that on the controlled 
substances like heroin, unlike alcohol and others, which cause 
more deaths, it spawns a culture of crime. It spawns a 
subculture that has the wave of infecting much more than the 
users. It affects, with the accumulation of billions of 
dollars, it affects our economy. It affects our workplace. It 
affects us in ways that are malignant, not that the others are 
not, not that the others are not, but it literally spawns, 
which is, I might add, one of the reasons why some folks like 
Kurt Schmoke and Mr. Buckley and others have called for the 
legalization of these drugs, which I think is a very bad idea, 
but I will not bore you with that now.
    So I do not mean to imply by the reports that I have 
written and keep pounding at this, is that one of the reasons--
I am the guy that wrote the legislation, as you know, to set up 
the drug director's office. I fought 7 years to get that done. 
Nobody wanted it done, and particularly Presidents, Democratic 
and Republican, because it requires accountability. And one of 
the reasons was to try to be able to get ahead of the curve on 
the drug of choice at the moment and to spare some of our 
children and spare our society if we could get ahead.
    Right now, we are finally just beginning to deal with what 
I talked to you and your colleagues about over a decade ago, 
pharmacotherapy. There is nothing new today that we did not 
know then except we did not have the money then to spend the 
time--there is maybe some new, but not much. All these drugs, I 
listed the drugs, LAMM, buprenorphine, all the drugs that are 
used, I listed them in this report in 1989. They were out 
there. The scientific community, you guys told us about them 
and we just did not spend any money on dealing with it.
    So what I want to focus on here for the people of my State 
to understand is, one, and let me explain my prejudice and then 
I will ask my question. I believe if mothers and fathers of 
this State understand how readily available this stuff is, how 
appealing it is to young kids, how I view it very much like the 
crack epidemic. Remember, that started in the Bahamas. You had 
guys like Moynihan waving a flag, saying, it is coming, it is 
coming, it is coming, and no one would pay attention.
    If I am not mistaken, it used to be for every one female 
cocaine addict back in the early 1980's, we had four men. The 
ultimate equalizer was crack cocaine. Now, it is one to one, 
because women could smoke it instead of snort it and distort 
their nostrils or do things that they thought at the front end 
would, in fact, affect them cosmetically. You could just smoke 
it, no problem.
    That is what I am worried about with heroin. I am worried 
about, and the New Castle County Police here can tell you, I 
had a little seminar with all of them 4 years ago saying, this 
is what you are going to see. This is what is coming.
    So I want to establish how dangerous it is and available, 
so people know. There used to be a commercial on television--
they have taken it off--for a long time, 6 or 8 years ago, a 
man on a wintry day standing in a graveyard looking at a 
tombstone, and all you saw was his topcoat and his pants and 
his shoes and you heard his voice and he would say, ``Johnny, I 
am sorry. I did not know. I knew drugs killed, but I did not 
know. I did not know it happened. I did not know when you were 
12 this could happen.''
    We are talking about 12-, 13-, 14-, 15-year-olds. Granted, 
the average age is down to 17 from 18, thereabouts. But I want 
parents to understand this is real. It can happen anywhere.
    The other reason for this is that if we do some smart 
things, we can affect, we can affect those who are out there, 
because I get calls from mothers and fathers saying, my child 
is addicted to heroin. There is nothing I can do. They truly 
view that once that occurs, life is over. It is not over, if we 
make the right investment, if we do the right things.
    So they are, very selfishly, the two purposes, the reason 
why I wrote the report and the reason I asked you all here. But 
in order for the very people that are paying the taxes to 
understand why I want to spend more of their money on this 
effort, it is important to me, I think, to be able to explain 
to them what we are talking about here. So explain how some of 
these drugs work, some of these medicines work on the brain.
    Mr. Leshner. OK; I will try to be brief on this subject. I 
have been known to go on for hours.
    Senator Biden. I could listen to you for hours.
    Mr. Leshner. Let me start out by saying the essence of 
addiction is the changes that drug use produces in brain 
function, and one needs to understand that, at its core, both 
drug abuse and addiction are about brains. That is to say, 
people like drugs because they like what drugs do to their 
brains. The problem is that, over time, prolonged drug use 
changes the brain in fundamental and long-lasting ways that 
produce the compulsion that is the essence of addiction.
    Having said that, that tells us that an addicted individual 
is actually in a different brain state than a nonaddicted 
individual, and that is why they cannot just cut that out, why 
they cannot just stop it and why you have to have treatment.
    Now, the fact that addiction is a brain disease, actually, 
that has embedded behavioral and social context pieces to it, 
is why you have to use medicines as a part of the total 
treatment modality that you will use to deal with the problem, 
and what we have been trying to do, stimulated, I must say, by 
your tremendous leadership, why we have been putting so much 
focused effort into the development of new and improved 
medicines and why we are taking advantage of what we have 
learned about the brain and how it interacts with drug abuse 
interdiction to develop new biology-based approaches to dealing 
with the problem.
    Senator Biden. Are the same parts of the brain--I know the 
answer to this, but it is important to say--are the same parts 
of the brain affected by the consumption of heroin, an opiate, 
as they are by the consumption of coca, cocaine, which is a 
stimulant?
    Mr. Leshner. Every drug of abuse has its own individual or 
idiosyncratic way of affecting the brain, but what we have 
learned in the last 5 years, I would say, is that there also 
are common effects on the brain that are common to all drugs of 
abuse. For example, they all modify the functioning of the 
brain's reward system of pleasure centers in a particular way, 
and we believe that those common effects are actually a part of 
the common essence of addiction, that is, the common essence of 
what produces that compulsion to use drugs. So our efforts are 
directed not only at specific drugs, but at addiction per se, 
addiction itself.
    Senator Biden. With regard to heroin, it was explained to 
me by one of your colleagues at Yale years ago that there are 
several receptors in the base of the brain, and indicated to me 
that if we could find a way to effectively block those 
receptors, like, and the analogy used was, like when you have 
an infant child, you put those little plastic things in each of 
the receptacles on the floor. You stick them in so that the kid 
cannot stick his fingers in it. If the kid cannot stick his 
fingers in a receptacle, he does not get electrocuted.
    The way it was suggested to me was, there is a possibility, 
then, based on adhering to molecules--well, without going into 
all that, either, that you could literally block the receptor, 
theoretically, block the receptor in the brain that makes you 
get the good feeling from the consumption of an opiate, in this 
case, heroin. Is that essentially true?
    Mr. Leshner. That is what, if I may speak for him, that is 
what Dr. O'Brien was speaking about with naltrexone. That is, 
naltrexone is what is called an antagonist. It blocks the 
action of heroin or other opiates at the opiate receptors in 
the brain and, therefore, when a heroin addict who has been 
detoxified is put on naltrexone, if they were to use heroin, 
they would not get the high from it. So it is actually doing 
exactly what you suggest.
    Senator Biden. Doctor?
    Dr. O'Brien. There is a risk here, though, that we have to 
tell you about, and that is that the drugs actually hijack 
normal brain functions. So the same pathways that Dr. Leshner 
talks about are also called into play during pleasure, watching 
a good movie, having sex, eating a good meal, or whatever, and 
so we do not want to block all pleasures, but we would really 
like to block the linkage, the abnormal memories, really, that 
link the drug use stimuli and the pleasure, and that is tricky, 
but that is what we are working on.
    Naltrexone, fortunately, does block the very, very specific 
effects of heroin and other opiates, but most of our patients--
not all, some of them actually cannot take it because they get 
unhappiness, really, with it, but that is a relatively small 
number, but most of them can still have normal pleasures even 
though we block the opiate-rewarding pleasures.
    Senator Biden. What are some of the other drugs, medicines, 
that you are looking at, or are there others that have the 
potential to block only the pleasure that comes from opiates 
but would not block other pathways of pleasure, in other words, 
would not block the pleasure of tasting, I guess, good food, 
sex, whatever else? Are there any other vehicles you are 
looking at?
    Dr. O'Brien. In the antagonist category, the best one that 
we have available right now is naltrexone. There is another 
drug called nalmethine that is being studied. Buprenorphine 
that Dr. Leshner talked about is another special category of 
drug. We call it a partial agonist, because----
    Senator Biden. Spell agonist.
    Dr. O'Brien. A-g-o-n-i-s-t--a partial agonist, whereas 
heroin, morphine, methadone, these are full agonists, and 
buprenorphine is a partial agonist, so it gives some opiate 
effect, but it has a ceiling. It has a limit on it and it 
cannot give a full opiate effect. So it is almost impossible to 
overdose on it and it prevents the excessive effects from other 
opiates. It also, unlike naltrexone, which you have to have 
good motivation to take it every day, you need a lot of 
support, because you do not get any good feeling from it. 
Methadone, you get good feeling from, but you can still use it 
excessively. It has mostly benefits, but you have to know how 
to use each one of these.
    Buprenorphine has other benefits in that it is something 
like naltrexone in its blocking ability, but it is also 
something like methadone in that you feel a little bit better. 
So there are more addicts who are willing to take buprenorphine 
on a regular basis than they are willing to take naltrexone.
    Senator Biden. I have one last question in this area. The 
way it has been explained to me by you gentlemen and others in 
your field is that the antagonist, the things that block any 
impact of the drug, like naltrexone, that they are thought of 
as most useful in the context of a holistic treatment of the 
person. Once they are off, it keeps them off for a time in 
order for you to be able to--it is not thought of as the 
vehicle to keep them on the rest of their lives, although some, 
I guess, it is possible. That in order to be able to live a 
normal life and have normal pleasures that do not relate to 
opiate consumption, in this case, that it is part of a 
psychotherapy regime that it goes on with and other initiatives 
that are nonprescriptive, nonpharmacotherapy in nature. Is that 
right? Is that how you think of the best use of these 
antagonists, as opposed to agonists?
    Dr. O'Brien. Right. Exactly. I think all of the 
medications, whether we are talking about agonists, partial 
agonists, or antagonists, they all require counseling, 
psychotherapy, something to help people with the transition 
from heroin use to a drug-free state.
    If I could just add one point that I think is responsible 
for a lot of trouble in this field, there is a lot more than 
just taking people off the heroin, which is what is generally 
paid for in our public assistance programs for Medicare and 
Medicaid and in our insurance and HMO programs. They are 
willing to pay for detoxification, but in most programs, they 
do not pay for the long-term treatment.
    So what happens is you have a revolving door. You get 
people to stop the heroin, they are clean for a while, and then 
they relapse. It is because there is a change in the brain that 
Dr. Leshner talked about that you need the chronic treatment, 
and I, personally--I am in charge of a large treatment program. 
I have a budget. I have to spend my money in the most efficient 
way. I think it is much more efficient to pay for long-term 
outpatient care, like the SODAT Program, rather than investing 
a lot in inpatient care without paying for the chronic long 
term to prevent the relapse, with medication and psychotherapy.
    Senator Biden. Now, one or both of you, and I would like to 
hear what you have to say about that, Dr. Leshner, we are going 
to add another piece to it and you can speak to both, if you 
would. One or both of you referenced that methadone, for 
example, has become a bit of a political football. There have 
always been its critics in terms of the way it is distributed, 
gets to readdiction to a ``less dangerous'' drug, et cetera.
    One of the things we have worked with you on, my office 
has, Dr. Leshner, is this notion. I introduced a piece of 
legislation called the Drug Addiction Treatment Act which would 
establish a new way for drugs like buprenorphine to get to 
patients, not in the clinic system like methadone, but in 
doctors' offices. It is also very controversial. One of my 
colleagues in the Florida Senate made a very tough speech 
saying this is just the liberals gone astray again. I had to 
remind him, every * * * criminal law written since 1978, I have 
authored, literally, not figuratively, but literally, that is 
the new battleground.
    The new battleground is when it is appropriate to prescribe 
buprenorphine or methadone or what may come along. What is the 
best way to do that to diminish the possibility of abuse and, 
nonetheless, help make it safer for my mother to walk out of 
the PathMark at dusk and not get mugged in the parking lot 
putting her groceries in by somebody who needs another $500 to 
maintain a habit for the remainder of the next 2 weeks. Can you 
talk to both those issues for a moment?
    Mr. Leshner. Sure.
    Senator Biden. Then I will yield and I will let you 
respond.
    Mr. Leshner. Just quickly, to reiterate, addiction is a 
bio-behavioral disorder, and just like any other brain disease, 
Parkinson's, Huntington's, whatever, having a stroke, not only 
do you have to deal with the biological consequences but the 
fact that it takes over your life, as a stroke does. You need 
rehabilitation. You need rehabilitation from addiction.
    Having said that, let me turn to methadone. One of the 
problems with methadone is there is tremendous ideology out 
there that is rooted in a fundamental misunderstanding about 
methadone.
    Senator Biden. Yes.
    Mr. Leshner. It is not true in the technical sense that 
methadone is literally a substitute for heroin. Whoever said 
that many years ago did a terrible disservice to drug treatment 
in this country. Methadone does, in fact, bind to the same 
receptors. However, it has a slow onset, a slow offset, and it 
actually stabilizes the brain of the heroin addict rather than 
destabilizing the brain.
    Having said that, the Institute of Medicine and the 
National Academy of Sciences and a specially convened consensus 
panel of the National Institutes of Health both advocated that 
methadone, and now buprenorphine, buprenorphine naloxone, be 
brought into the mainstream of medical care in this country. 
There is no question that, over time, we are going to need to 
see these medicines, better understood, and then well delivered 
in clinical practice by physicians.
    Senator Biden. Explain what you mean by the mainstream of 
medical practice. Give me an example of what you mean. Do you 
mean, John Doe is a heroin addict. John Doe has gone through 
the process where he or she has been detoxified, if that is the 
phrase--I know, in alcohol, it is detoxified. Now, they are 
looking for a maintenance, an ability to stay off the stuff, 
whether they choose the naltrexone route or not, and they go to 
the local doctor. Do you mean the local doctor should be able 
to write a prescription?
    Mr. Leshner. I do not anticipate that just any GP is going 
to be giving any addiction medications. Addiction medicine is a 
specialty and you need some substantial training to understand 
how to do it, to understand when you have to refer to 
treatment, to understand when you have to do clinical practice.
    But having said that, there is no reason why an 
appropriately trained physician could not prescribe methadone, 
or particularly buprenorphine combined with naloxone, this new 
medication, that actually will be virtually nonabusable by a 
heroin addict on the street.
    So what we are hoping for is that appropriately trained 
physicians will be able to, through hospital clinics, through 
private practices with a limited number of patients, will, in 
fact, be able to prescribe these medicines in an appropriate 
way to those people who so desperately need it.
    Senator Biden. The last question I have on this, because 
the press, understandably, will want to ask more about this, 
about what are you proposing, Biden? Is there within the 
medical community, the governing boards, the accreditation 
community, is there discussion about the accreditation--assume 
we go this route, because that is what medical science and the 
practice is saying, we should move that direction--is there 
discussion about what credentials would be required, 
particularly requiring a particular, not just having an M.D. 
behind your name? Is there any discussion of narrowing the 
circumstance under which medical doctors could prescribe these 
kinds of agonists or partial agonists?
    Mr. Leshner. Absolutely, and Dr. O'Brien has been involved 
in some of these activities. Let me just quickly say that the 
American Society of Addiction Medicine certifies physicians to 
be addiction physicians. The American Academy of Addiction 
Psychiatry also certifies physicians in addiction psychiatry, 
and both of those organizations have agreed to be working on 
guidelines for the administration. So this will not be a 
haphazard activity.
    Dr. O'Brien. If I could just add, there are two opposing 
issues here because nowhere else in medicine do we have people 
required to get special accreditation. I am a physician----
    Senator Biden. I agree. That is why I am raising the 
question.
    Dr. O'Brien. I could prescribe all sorts--legally prescribe 
all sorts of very dangerous immunotherapies and hormones and 
cardiac drugs and things that I know very little about, but I 
could legally do it. I could not ethically do it, but I could 
legally do it. And, actually, buprenorphine is a very safe drug 
and there are probably a lot of physicians who could benefit 
from some information about it so that they could prescribe it. 
But if we put legal restrictions, I think that that is going to 
really limit it more, and if you compare it to other drugs, it 
is actually a lot easier to use.
    Senator Biden. That is why I raised the question, because I 
think there is going to be a political dynamic here, that if we 
move in this direction with the ability to so easily demagogue 
this issue from the right, I mean, it is a great thing. I can 
make a speech. It is an easy one to make. I think, absent some 
way in which to do something that I think is probably not from 
a professional standpoint particularly enlightened or wise, but 
nonetheless may be politically necessary in order to get the 
kind of support that is going to be needed to deal with this 
pharmacotherapy aspect of treatment. We are just beginning that 
fight.
    I apologize to the other folks in here. One of the senses 
of relief my colleagues got when I gave up the Judiciary 
Committee and we lost control of it is, I find this so 
interesting and so fascinating, I hold hearings for hours on 
this subject. It makes me, as my mother would say, a little bit 
of knowledge is a dangerous thing. I have a hell of a lot more 
knowledge than anybody in the Congress, but only a little bit 
of knowledge, which is worrisome, I guess, to people. I could 
keep you here all day, but you both have incredibly busy 
schedules, as does the second panel.
    So I have no more questions for you two. You are welcome to 
stay. I do have questions for the remaining two members of the 
panel, but I know, Doctor, you have got to get back to 
Philadelphia, and I know you have to get down to Washington, 
and I appreciate it very, very much and look forward to being 
able to call on you again, as well, privately, to pursue some 
of these specific issues.
    Mr. Leshner. Thank you, Senator.
    Dr. O'Brien. Thank you.
    Senator Biden. Thank you so much for coming. I appreciate 
it.
    Mr. Nelson, I want to focus on two items. One is, as I 
understand it, to cut to the chase here, one of the reasons why 
I started 6 years ago saying heroin is coming and it is coming 
from South America, it is not going to come from Turkey, it is 
not going to come from the Golden Triangle in Southeast Asia, 
it is going to come from the South, is because our boys in the 
South had basically saturated the market on cocaine and it was 
predictable there was going to be a new deal coming.
    It does not take a whole lot of hectares to provide enough 
poppy for opium. These guys already had the network set up and 
they already were in business and they, * * *, they could bring 
in oil by their pipeline that they have, almost, although that 
is more cumbersome and bulky. But they are very, very efficient 
distributors.
    So as I understand it, there has been a shift not away from 
cocaine, but an added product, a new service offered by our 
friends from Colombia and the Wahila Valley and other areas 
between Peru, Bolivia, Colombia. But now, the route is either 
through Mexico or up through the Caribbean, the traditional 
route that used to be the way until we got relatively effective 
and it found its way through Mexico.
    The interesting thing to me is, though, the Colombians and 
Dominicans seem to be in control, whereas cocaine, the Mexicans 
have taken over a major chunk of the distribution because they 
have seized not only--they not only have the old tollbooth 
method, if you are going to come through my country, you give 
me a piece of the action, they have essentially taken over 
networks and cocaine.
    Mr. Nelson. Right.
    Senator Biden. Can you explain to me why the Colombians 
still seem to be the wholesalers and the Dominicans on the East 
Coast are the retailers?
    Mr. Nelson. Senator, I believe that, as you put it, the 
Colombians have the network. They utilize the transportation 
routes for airports into Miami and New York. They had the 
retailers right at their beck and call. They were giving the 
product of cocaine to the Dominicans for distribution and they 
simply told them, we have a new product, and for you to 
continue to have access to this cocaine and the lucrative money 
making, you must take the heroin. That is one of the rationales 
that we believe that the Dominicans have control of the cocaine 
and most of, if not all of, the heroin distribution in 
Philadelphia, which impacts, obviously, here into Wilmington.
    Senator Biden. One other question about the distribution 
piece. When cocaine was introduced, crack cocaine was 
introduced, it was essentially given away like candy to get 
people addicted. I mean, these guys could sell soap well. They 
go out into a market, they saturate the market, they have a low 
price, they have given it away in the past to teenagers, they 
have given it away at a very low price, not unlike, and I am 
going to get in real trouble for saying this, the tobacco 
companies promoting, early on, at least, additional addictive 
nicotine content in cigarettes, based on the records that are 
being made available, in order to get people hooked early. You 
get them early, you have got them for life. You get them early, 
you have got them to the average life expectancy of heroin 
users, 29, or 28 it used to be. It may be a little lower on 
average. I do not know, Tommy, what it is now, today.
    But is there a relationship between the purity and the 
introduction? When I say introduction, I mean this new wave of 
heroin is relatively new in terms of purity and price. What do 
you anticipate happening? I mean, as the market expands, as the 
clientele expands, if it does, do you expect the purity and 
price to stay where it is?
    Mr. Nelson. Yes; years ago, when heroin was being used in 
Washington, DC, where I first began, it was at a 4 and 5 
percent usage level, and as you can see now, we are talking 
about 80, 90, and even higher. Ninety-five percent, I think, is 
our highest. That is a quicker introduction to the product. The 
addiction process begins quickly. It is not a short-term event. 
So we believe that, yes, that the purity is going to stay 
there, currently at the percentage we show in Philadelphia, and 
the price is going to possibly go up. Of course, in the 
business end of this, if you have something that someone 
desperately needs and you have it sold to them for $10 
yesterday and they desperately need it and you can up the ante, 
the profitability certainly is there.
    Senator Biden. The irony of all of this to me is, as a 
student of this subject, we are well into our second drug 
epidemic. The first one, particularly with opiates, began in 
the 1870's, culminated with the passage of the Harrison Act in 
the late teens and early 1920's, and our first drug czar was 
actually a guy named Anslinger, like gunslinger, back in the 
1920's.
    It used to be, by the way, that we had mandatory drug 
education in about 32 States, K through 12, back then to break 
the drug addiction, and we do not have that anywhere today. I 
mean, I do not know why the heck we do not learn from the past, 
but apparently, it is not a route we want to go, but it leads 
me to this question.
    This idea of dealing with the ability to interdict drugs, 
which we all support, the question is not--I am not going to 
ask you the percentage, but the irony is, you are seizing 
incredibly larger amounts of controlled substances, cocaine and 
heroin, and yet we are still maintaining usage and/or the total 
amount being consumed is higher, which would lead one to 
believe that, notwithstanding how, and this is no criticism, I 
mean, the effectiveness is amazing. You are picking up 
incredible amounts of seizures, but there are also incredible 
amounts getting through. What does that tell you? I guess in 
your business, it is seize more.
    Mr. Nelson. Yes, sir. That would be--like I said, the more 
we do in law enforcement, it seems like we end up having more 
to do. This is one of the issues that has faced us in the law 
enforcement business over the years.
    To answer your question, I do not have the figures of the 
production of the heroin and the cocaine throughout the world. 
Yes, our statistics show that we are making seizures every day 
and increasing those seizures, yet the problem still exists.
    Senator Biden. I have one last question for you. Given the 
fact that people in both my State and the State of Pennsylvania 
are getting heroin--and New Jersey, I might add, the Camden 
area--are getting heroin from the same place, downtown 
Philadelphia----
    Mr. Nelson. Correct.
    Senator Biden [continuing]. Are local, State, and Federal 
law enforcement agencies in all three jurisdictions working 
together to deal with this, along with the Feds?
    Mr. Nelson. Yes, sir. That is one of the classic efforts 
that DEA prides itself in, working with States and locals and 
their Federal counterparts. We have a major task force 
operation in Philadelphia, well over 30 years old. As you know, 
we instituted an office in Dover with your help as a part of 
our program to establish the communication between the State 
and local folks and our efforts. We are a national agency. We 
work worldwide, so our communications are good.
    But to answer your question, the communication is there. 
The support is there between the agencies, and it is one of 
DEA's primary missions, is to work with our State and local 
counterparts.
    Senator Biden. I do not want to get you in trouble, and I 
am occasionally accused, because of my having, in a sense, 
founded the office and my relationship with General McCaffrey, 
but do you have an opinion on whether or not Delaware should be 
included in the Philadelphia-Camden HIDTA efforts?
    Mr. Nelson. Yes, sir, I think that Delaware could certainly 
benefit from the resources of the Drug Czar's office. The 
coordination aspect of that certainly can be handled between 
the DEA offices, as well as the committees that are formed to 
oversee the HIDTA's, which are basically the State and local 
entities, the Federal entities. Inclusion into the Camden-
Philadelphia HIDTA is one method. Creating its own HIDTA here 
may serve better. But the resources that could be applied here, 
an approach could be to identify the needs of that three-legged 
stool, law enforcement, treatment, and education, and have that 
as the backbone for requests for support from ONDCP in terms of 
funding and other resources.
    Senator Biden. I am, as should come as no surprise to you, 
I am working on that and I am hopeful that we can get that 
done.
    Tom, I have a couple questions for you, because the three 
people who have spoken are national and regional in their scope 
and they have worked in this issue for a long time. But to use 
that old expression, you are right where the rubber meets the 
road. I mean, you have Delawareans walking in off the street, 
being sent by the courts. You work with the courts, the drug 
courts, closely.
    You have cited the success you have had with naltrexone and 
why and the relative savings versus enforcement. If--if--a 
depot is developed, and as I said, as long ago as 10 years ago, 
11 years ago, we wrote about that as a possibility, then it was 
talked about literally injecting, in effect, a capsule into 
your arm so that you would be in a position that for up to 30 
days, and I heard today they may be able to go up to 60 days, 
that you would have this blocker in place. And, I might add, 
there is very promising research on cocaine, carzomezapine and 
other medicines, and there is a particularly promising one that 
I will not bore you with that you know about, but this is about 
heroin.
    Assume, for a moment, that there is developed a depot--by 
depot, again, you and I know what I mean, that is whether it is 
through injection or insertion into the bloodstream an ability 
to have one injection or one orally-taken pill that would block 
the receptors, the opiate receptors in the brain, for up to 30 
to 60 days--what is the practical impact on the person who 
receives that blocker, heroin addict who receives that blocker? 
Does it enable them--assume, for a moment, based on your 
experience, they were in that state for 30 to 60 days at a 
shot. Can you extrapolate from your experience how that affects 
their motivation, how that affects their ability to hold a job, 
how that affects their life?
    I know with lithium, with those who are bipolar and 
alcoholic, the consumption of lithium tends to work, but they 
do not take it because they lose the ability to have that manic 
high and they miss it and so they do not take it.
    What is the practical effect, if you can talk about it, how 
someone would be able to function?
    Mr. Maloney. Well, Senator, the problem we had with the 
naltrexone with those who we administered it was that it was in 
50 milligrams, which meant we would have to give it to them 
every 2 days. Obviously, if someone did not show up on a 
Friday, you had a pretty clear indication we probably would not 
see them on Monday.
    So part of the treatment side of it was administering the 
medication, and if you could have something that would have a 
30- to 60-day lasting effect, then full concentration could be 
given to treatment as well as some of the horizontal 
integration of getting jobs for people, job skills training so 
they could get decent jobs. And so you could focus on those 
kinds of alternative things in their life that would make----
    Senator Biden. If you had a long enough period for them to 
be off of it?
    Mr. Maloney. Yes. And in addition, if you stop in Delaware 
and look at the largest increased population in our prisons, it 
is for people who are violating probation. Now, we all know 
that many people come out of prison and no one wants to hire 
them. They cannot get a job, so they obviously do not feel very 
good about themselves. They usually revert back to drugs, if 
that is what their background was, and they end up that they 
want to get more drugs and the only way they are going to get 
them is to commit a crime. So, eventually, this cycle goes 
back.
    So the enormous cost to us by having a population coming 
out of prison that is going to get rearrested in a 2-month 
period, that is an enormous cost to us. Therefore, if we could 
have medications that would last for 30 or 60 days and 
incorporate them into a probation program, I think we would see 
a radical change in the crime rates in our State.
    Senator Biden. When I suggested that 10 years ago, I was 
met with the following, and I think legitimate, criticism. They 
said that the moral component of this is not there. To force 
someone on probation, which I proposed, into a circumstance 
where the condition of probation was that they take, assuming 
it were developed and we are on the eve of that happening, a 
medicine that, by injection or otherwise, would block the 
effects of the addiction that they had, in this case, opiates, 
for 30 to 60 days, was immoral, that the State had no right to 
do that.
    I realize you are not an ethicist, although you are one of 
the most ethical people I have ever known in my life, and I 
have known you since high school. Do you have an opinion as a 
treatment provider what the social/ethical dynamic, if that 
were written into the law, assuming we arrive at this 
capability, to deal with probation or parole as a condition to 
have to show up with you or whomever once every 30 days or 120 
days?
    Mr. Maloney. Well, I would think the easiest example to use 
would be those who we think we might be able to release earlier 
than we normally would under the condition that they would 
accept taking the medication, and there, it would be a 
voluntary choice on the part of the participant that, yes, I 
would like to be released earlier.
    If it is someone who has completed the sentence, whether or 
not the court could impose after they have fulfilled the 
sentence a condition of probation that they take the 
medication, I suspect there may be legal issues of due process 
on that.
    Senator Biden. I think there----
    Mr. Maloney. But I certainly would think that it would be 
something that many people would opt to do, because I do not 
think that the people that I have dealt with want to do drugs. 
They would like not to have to do drugs. And many of them would 
love to have an opportunity to find something that would work 
for them.
    Senator Biden. The way, I think, from a constitutional 
standpoint, the way to do it, and I will raise this with my 
next panel and my staff is telling me to move on here, is that 
it could be a condition of the sentencing at the front end. If 
the sentencing was, you are sentenced to x-number of months or 
years and then, I assume that could be met constitutionally.
    I thank you both for being here. I may submit a couple 
questions in writing for you, if I could, for the record.
    It has been extremely helpful and I thank you very, very 
much.
    Mr. Maloney. Thank you, Senator.
    Mr. Nelson. Thank you.
    Senator Biden. Now I am going to call our next panel. Our 
next panel is made up of Sergeant Tony Hernandez, New Castle 
County police officer assigned to the heroin alert unit.
    Next is Lt. Karl Hitchens, New Castle County paramedics 
supervisor. He has the unfortunate job far too frequently of 
responding to heroin overdose calls and help coordinate the New 
Castle County Police heroin alert video slide presentation.
    We also have Marie Allen of Heroin H.U.R.T.S., H-U-R-T-S. 
Heroin H.U.R.T.S. is a support group of parents whose children 
are either heroin addicts or have died from overdoses. Her 
daughter, Erin, died earlier this year of a heroin overdose.
    Next is Maria Matos, executive director of the Latin 
America Community Center.
    And we have Sally Allshouse, Brandywine Counseling and 
Treatment, which is a methadone treatment facility in Delaware 
with some 600 clients.
    Why do we not start with you, Sergeant Hernandez, and tell 
us a little--if you can keep your statements to about 5 
minutes, I would appreciate it, because I do have questions for 
you. Tell us a little bit about the heroin alert unit, please.

  PANEL CONSISTING OF SGT. TONY HERNANDEZ, NEW CASTLE COUNTY 
   POLICE OFFICER, HEROIN ALERT UNIT; LT. KARL HITCHENS, NEW 
   CASTLE COUNTY PARAMEDICS SUPERVISOR; MARIE ALLEN, HEROIN 
   H.U.R.T.S; MARIA MATOS, EXECUTIVE DIRECTOR, LATIN AMERICA 
 COMMUNITY CENTER; AND SALLY ALLSHOUSE, BRANDYWINE COUNSELING 
                         AND TREATMENT

                STATEMENT OF SGT. TONY HERNANDEZ

    Sergeant Hernandez. Good afternoon, Senator. The Heroin 
Alert Team was developed last year, April. It came into 
existence at the direction of our colonel. He saw a national 
trend with heroin and decided, let us look to see what is going 
on at home. A team was formed to research the extent of the 
problem. We did that, determined that we had a serious problem 
that was really sneaking up on us, and then developed a 
program, initially directed to parents to heighten their level 
of awareness. Once they started to see the program, they asked 
us to take it into the schools, communities, churches, youth 
groups.
    We have had some successes that we would never have guessed 
we would have experienced, successes such as a student who 
approached us at a local high school after seeing the program 
and was very, very gracious and kind and thanked us for having 
the presentation. His school, we thought it was no big deal. He 
later indicated that it was a big deal because he had plans of 
using heroin, trying it for the first time that weekend, and he 
was so moved by the program that he decided that is not where 
he wanted to go, and he was being misled. He was being deceived 
by those around him that were using. So that is just one 
example, and we have had other successes.
    Senator Biden. What do the kids say in high school these 
days? I can remember back early on, if you said to kids, you 
know, you can inject this heroin in your arm and they go, oh, 
man, that is bad stuff. But then, on the other hand, if you 
said, by the way, you can smoke a joint here and it is not 
addictive, it is no big deal, in what end of the spectrum is--I 
mean, how does this get sold, figuratively speaking? How do 
high school kids talk to each other, because a lot of ``good 
kids'' are trying this stuff. How is it sold? I do not mean 
physically sold, I mean, what is the deal? What do people say 
to one another?
    Sergeant Hernandez.  A lot of people, I think, consider 
peer pressure as one of the main factors, and it is true. Peer 
pressure does contribute to the problem. However, curiosity 
plays just as big a factor, and a lot of the young people we 
talk to try it because they are curious, because they want to--
--
    Senator Biden. Do they think it is addictive? I mean, what 
do they think? What are you hearing in the high schools? Do 
kids say, well, I can try this and it is no big deal, I mean, 
or they think it is a big deal.
    Sergeant Hernandez.  Sure. We have had cases or incidences 
where young people have been drinking alcohol, smoking 
marijuana, thinking, well, I beat those addictions. I could try 
heroin and it is not going to affect me. Again, they are being 
misled, though, by their own friends, or so-called friends, and 
persuaded into doing something that is obviously deadly.
    Senator Biden. Lieutenant Hitchens.

                 STATEMENT OF LT. KARL HITCHENS

    Lt. Hitchens.  Yes.
    Senator Biden. Do you have an opening statement you would 
like to make? Can you tell us a little bit about the work you 
are doing?
    Lt. Hitchens.  With the Heroin Alert Team, I was put on it 
because the paramedics are dealing with these addicts on a day-
to-day basis. I can tell you, we have a slide presentation, if 
you would like to start that, to give you an idea what is going 
on with this drug.
    Senator Biden. OK.
    Lt. Hitchens.  You hear a lot of statistics and figures and 
numbers, and a lot of people do not realize that these are our 
kids that are dying in our homes and the streets. When I 
started in EMS 12 years ago, responding to a heroin overdose 
was an event and they were few and far between. Most of them 
tend to occur in the city, and your victims were your older, 
hardcore addicts.
    But over the past few years, with heroin becoming popular, 
cheap, pure, heroin overdoses are commonplace. They are common 
occurrences in our county. I can tell you that, last year, in 
New Castle County, we had 136 heroin overdoses that the New 
Castle County paramedics canceled, and that shows you where 
they are at all over the county. It does not matter where you 
live. We also had 24 deaths. They occurred all over the county. 
Right now, in 1999, we respond to an average of 12 heroin 
incidents a month, and those numbers are rising.
    The victims of the overdoses are getting younger and 
younger and they come from the very communities that we all 
live in. They do not come from somewhere else. Heroin has 
become the drug choice of mainstream America. It has moved from 
the opium den into the family den. And, yes, Senator, I can 
tell you, heroin is in your community just as well as it is in 
mine. It is in everyone in this room's community.
    No walk of life is immune to this epidemic. During my 
tenure with the Heroin Alert Team, I have met police officers, 
nurses, doctors, lawyers, elected officials, you name it. We 
have met a profession who is living through the * * * of having 
a loved one addicted to heroin. Something has got to be done.
    We need more funding for treatment, prevention programs, 
before another little brother has got to find his big brother 
like this, or a mother finds her son like this, or another 
boyfriend is found like this, or a single mom finds her only 
son like this.
    Now, words alone cannot express the frustration of families 
that are dealing with this heroin problem. As a paramedic 
handling heroin overdoses, I not only have to deal with the 
sights of another dead young person, I have to deal with the 
family emotions. Each and every scene is the same, the young 
victim, the paraphernalia, the family wondering out loud, why? 
Where did we go wrong?
    One, in particular, heroin death sticks out. It was a 19-
year-old young man dead from heroin. As the paramedics were 
declaring him dead, his family was downstairs asking out loud 
what went wrong. His sister was screaming, ``I only left him 
for a little while.'' She had been keeping an eye on him on a 
24-hour watch after he asked her for help for his heroin 
addiction because there were no beds in detox for him to go to. 
His healthcare insurance would not cover the treatment he 
needed. So his sister tried to watch him and tried to 
accomplish the near impossible. She tried to keep him away from 
the heroin. She did her best. She was with him day and night as 
he fought the cravings. But she took some time to take care of 
herself, and when she came home, she found him like this, dead 
from a heroin overdose. From his bedroom, he went here, to the 
cold, hard slab.
    I could go on and on with story after story, but they are 
all the same, about families fighting to get help for their 
loved ones' addictions.
    In particular, the State of Delaware needs to wake up. I 
cannot put it any plainer. I will give you an example. Delaware 
has no juvenile detox center. They detox on the cell floors. A 
14-year-old in the State of Delaware can sign themselves out of 
treatment without their parents' consent. That is State law. 
There are no long-term residential treatment centers in the 
State of Delaware, and we have a serious heroin problem. We 
need to wake up before another mother has to identify her 
daughter in the morgue like this. Thank you.
    Senator Biden. Thank you. [Applause.]
    Ms. Allen, are you OK?
    Ms. Allen. Yes.
    Senator Biden. I must say to you that I have, having lost a 
child by other circumstances, not addiction, a young baby, 
almost 2 years old, I am not sure I could sit through that--it 
happened to be an automobile accident, the statistics about 
automobiles--and still testify. You are a better person than I 
am. We truly appreciate you being here and we welcome your 
testimony. Take whatever time you need. If you want to stop and 
we will come back, we will do it any way you want.
    Ms. Allen. I am all right.
    Senator Biden. OK.

                    STATEMENT OF MARIE ALLEN

    Ms. Allen. Thank you for letting me be here. When I found 
out that Erin was addicted to heroin, I really did not have a 
clue. I was uneducated about heroin and its deadly grip. I 
thought that she could kick this addiction. Little did I know 
that she had been lured into a deadly trap that would 
eventually take her life.
    Erin was becoming someone I did not recognize. Her arms and 
legs were scarred with needle marks. Her eyes were sunken and 
dark. She was dying before our eyes and we did not know how to 
help her. Our entire family was being controlled by Erin's 
heroin addiction. Getting heroin had become Erin's full-time 
job. She traveled to Kensington and to Philadelphia every day 
to feed her addiction, going in the places that you and I would 
never dream of going. Erin did not want to be a junkie, a slave 
to heroin. She tried many times to detox and rehab. She would 
stay clean for maybe a week or so, then she would give in to 
her cravings for heroin.
    After being clean for 9 months and residing at the CREST 
Program in Wilmington because of a felony charge directly 
related to Erin's heroin addiction, she had gotten out on work 
release. A simple blood test had made Erin's cravings for 
heroin return stronger than ever. She left work that day and 
went to Kensington. I did not see Erin again until we were 
called to the coroner's office in Philadelphia. Erin had died 
and heroin was her killer, and it is still loose in our 
neighborhood.
    Since April of last year, I have been working with the New 
Castle County Police Heroin Alert Team in an effort to raise 
the level of awareness about this problem. I have been telling 
Erin's story because I know how she suffered and I know that 
she would want me to warn other people about heroin. She would 
want me to tell them how this drug took her life and changed 
our family's life forever.
    A little over a year ago, after seeing a Heroin Alert 
program, three moms who all have children who are addicted to 
heroin formed the Heroin H.U.R.T.S. support group. I joined 
that group, and we now have over 150 families in Delaware and 
Maryland who come to share their pain, their horror stories, 
their hope that their children will someday be able to live a 
life without heroin.
    Heroin H.U.R.T.S.'s mission is to provide support, 
education, and advocacy to parents, family members, and friends 
of persons with addictions, and to promote research and 
development for more and better treatment programs and 
facilities specifically for heroin addiction. Heroin H.U.R.T.S. 
is in the process of getting transitional housing so that when 
a person is released from detox, they will have a safe haven 
while waiting to be placed in treatment, instead of being sent 
back into the streets to use again.
    Over the past 1\1/2\ years, I have met too many young 
people addicted to heroin and fighting to get their lives back. 
Some of those young people have come here today with their 
parents. They are involved with each other's lives through a 
peer counseling group that was started by Heroin H.U.R.T.S. 
This group is giving these young people a chance that my 
daughter, Erin, did not have.
    If the devil is out to destroy lives, then I would have to 
say that the devil is heroin. I have never seen anything so 
destructive, and I do not know how, but it must be stopped.
    Senator Biden. Thank you very much, Ms. Allen. Let me ask 
you one question. What did you mean by a simple blood test 
caused her to relapse?
    Ms. Allen. She went to get a blood test, and when the nurse 
put the needle in her arm, she came out of the office like she 
was going through withdrawal. She told me it made her start 
craving it.
    Senator Biden. That is what I thought you meant.
    Maria, welcome. Thank you for being here.

                    STATEMENT OF MARIA MATOS

    Ms. Matos. Thank you.
    Senator Biden. You seem to be involved in every good thing 
we try to do.
    Ms. Matos. We try to be there. We have to all get involved. 
I thank you for having me.
    This very second, there is a teenager in our community 
trying heroin for the first time, not knowing where in the long 
run he is going to end. Here in Delaware, heroin use is 
skyrocketing. Heroin in our community is not only affecting the 
older generation, but now, more than ever, it is affecting our 
youth. The number of adolescents and young adults using heroin 
is growing rapidly every day. Heroin affects the whole 
community. It is not just a problem in the inner city. Heroin 
has found its way into suburban families all around Delaware.
    Today, heroin users range from the homeless to the 
straight-A honor students. One important factor that we have 
learned is that heroin does not discriminate. One of the main 
reasons heroin is so appealing to our youth is because of the 
way it is packaged. The majority of youth use heroin in powder 
form, which is much more attractive than the dirty old syringe. 
The sad part is that whether they inhale or inject, it still 
pulls them into the dark, horrible world of addiction.
    In an informal survey conducted at the LACC----
    Senator Biden. Explain what you mean by the LACC.
    Ms. Matos. The Latin American Community Center. Young 
people, ages 11 to 22, were asked three questions. One was, do 
you know what heroin is? If so, have you ever seen anyone doing 
heroin, and how difficult or easy is it to get or to buy? We 
talked to 56 kids. Out of those, 16 did not know what heroin 
was. Forty knew exactly what it was. And out of the 40, 45 
percent, or 18, had actually witnessed someone using. Pretty 
disturbing.
    When asked about the assessability, the answers were very 
alarming. Answers were, like buying candy from the store, 
extremely easy to get. They come up to you and ask you. You do 
not have to ask.
    This is where the question of treatment comes in, Senator. 
Delaware at this moment cannot meet the demands for the 
treatment programs, especially treatment for our young people. 
Many of the drug treatment programs that we have in Delaware 
requires a person to be at least 18 years or older. We are 
dealing with a drug addiction which is a very, very cunning 
disease and requires long-term intensive treatment, 24 hours a 
day.
    We need longer-term care programs, programs like Hogar 
Crea. Hogar Crea is a nonprofit, 2\1/2\- to 3-year drug and 
alcohol treatment program with a 5-year followup. Maybe you are 
asking yourself, what makes Hogar Crea different from all other 
types of treatment programs? What makes Hogar Crea different 
from all the other treatments in the world is Crea believes in 
reeducating rather than rehabilitating. Any addict can go away 
to a program and get healthy and rehabilitated, and 
rehabilitate his body and leave. But when he leaves, he will 
still have all those negative behaviors and characteristics of 
an addict, which will soon head them back to addiction, whereas 
in Crea, we focus on breaking down everything about a negative 
character and rebuilding a healthy, positive character and 
instilling moral values into their lives. The theme of Hogar 
Crea is responsibility, because our main focus is to 
restructure the lives of addicts so they become responsible, 
respectful, mature, and productive members of society.
    This State and the country need to fund programs that work. 
Programs like Hogar Crea that has a success rate like no other 
drug and alcohol treatment in the world. Ninety-two percent of 
all residents who finish the entire program, including the 5-
year followup, have not returned to drug addiction. Hogar 
Crea's success rate speaks for itself. Many will agree that 
Hogar Crea is the most effective drug treatment in the world.
    At this moment, Hogar Crea only has one facility in the 
entire State of Delaware that is opening and functioning. We 
also own another property, which will be developed into a 
women's center, and we have plans to go as far away as 
Georgetown. Of course, the only obstacle Hogar Crea has is the 
funding to open up the centers, which are desperately needed in 
the State.
    In our community, we have seen the trend locally go from 
crack cocaine to heroin, and this is obvious based on bags that 
area residents are finding and police have identified as heroin 
paraphernalia. There is a large number of young people that 
have been introduced to heroin and now need help. We find that 
the resources are not in place to meet the growing need, very 
few detoxification beds and no long-term treatment programs. 
Heroin is very addictive and in order to break that addiction, 
one needs long-term care and intensive aftercare.
    Parents who have addicted youth are told either by the 
courts, the parole officers, or others that they have to watch 
their youths 24 hours a day. How is this possible if they have 
to work to support their families?
    Non-English-speaking inmates with heroin addiction are left 
out in the cold because programs like CREST and KEY are not 
accessible to them.
    I thank you for allowing me to speak on behalf of the many 
families that have lost their children to this dreadful 
disease, including myself--I lost a stepson to heroin--and many 
that are still looking for help and their children but cannot 
find it. Thank you.
    Senator Biden. Thank you very much.
    Ms. Allshouse.

                  STATEMENT OF SALLY ALLSHOUSE

    Ms. Allshouse. Yes. My name is Sally Taylor Allshouse and I 
would like to thank you for the opportunity to speak before 
this public hearing. I have worked in the drug and alcohol 
field for over 26 years in the State of Delaware. We are at a 
crisis point and all resources, both State and Federal, must 
respond to the heroin epidemic in Delaware.
    I have brought a chart for you today that I think shows the 
problem that treatment programs are experiencing in Delaware. 
This chart presents the increasing census that Brandywine 
Counseling has experienced over just the past several years. 
These numbers just reflect our heroin missions. We have over 
1,000 people in treatment, and these are just our heroin.
    As you can see, Brandywine Counseling has shown an increase 
of over 300 percent in our heroin admissions, and for the first 
time in several years, waiting lists will now occur for both 
methadone programs in Delaware. This will occur since dollars 
are no longer available to meet the demand. The Division of 
Alcoholism, Drug Abuse, and Mental Health funds the majority of 
treatment programs in Delaware, and even though the State 
continues to experience surplus in revenues, the alcohol and 
drug treatment dollars have actually decreased over the past 
several years, thus not allowing providers inflationary 
increases or addicts increased access to treatment.
    This chart also shows you the breakdown of people who are 
actually in treatment at this point, 66 percent male, the race, 
47 African-American, 46 percent Caucasian, seven percent 
Hispanic, and as you see, over 39 percent of our clients are 
really between the ages of 18 and 34, and again, that is for 
just our heroin admissions.
    Senator Biden. Are you able to treat legally someone under 
18?
    Ms. Allshouse. With parental consent, yes.
    Senator Biden. But you do not have any?
    Ms. Allshouse. None. These numbers just reflect individuals 
being admitted to Brandywine Counseling methadone maintenance 
program. Heroin addiction hurts not only the addict, but also 
hurts the parents, the children, other family members, and our 
communities. These numbers do not show the crimes committed, 
the neglected children, and the medical complications 
associated with this drug.
    Delaware ranked seventh in the nation for AIDS cases, up 
from 13th in 1992. Intravenous drug use is the number one 
reason for that ranking. This alone should be a reason to fund 
programs that fund heroin addiction.
    These charts are people who are waiting outside at midnight 
to be admitted into my program. Since they know that there is a 
demand for slots, if they show up and sleep outside, they might 
get a number to get in early into treatment.
    Brandywine Counseling is not the only alcohol and drug 
treatment program in Delaware being stretched to its limit. 
Programs Statewide are seeing admissions soar. In fact, New 
Castle County detox, for the first time since records have been 
kept, saw heroin become the primary drug of admission, 
outranking alcohol for the first time.
    Delaware has hit a crisis point, and if increased dollars 
for treatment and law enforcement are not provided, then still 
another generation will be lost. The changing face of heroin 
addiction has brought younger addicts to our programs, 
overwhelming our resources.
    What can be done? One, provide additional dollars to 
treatment programs so that waiting lists are eliminated. This 
will allow treatment for heroin addiction on demand. It costs 
less than $3,500 a year to keep one heroin addict in treatment 
at Brandywine Counseling, a small price to pay for the hurt 
heroin afflicts both financially and emotionally in our 
community.
    Two, investigate adding to the drug courts in Delaware 
crimes of shoplifting and prostitution. These crimes are not 
included at this time and are associated with heroin use. This 
will allow earlier intervention into the addiction process, and 
other drug courts have found this very successful. Delaware has 
a very successful drug court and adding these crimes would 
further enhance the program.
    Establish a needle exchange program in New Castle County. 
All revenues for prevention of HIV and AIDS must be brought to 
the table. The City of Wilmington and many legislators do 
support this effort, and with dollars and a commitment by the 
legislature in Delaware, this could occur.
    Four, increase law enforcement efforts between Delaware and 
Pennsylvania. Delaware needs their cooperation, since the 
majority of users buy their drugs in Pennsylvania. Both States 
have to have a mutual commitment if law enforcement can begin 
to combat this problem.
    I would like to thank you and also say that Renatta Henry, 
the Division Director of Alcohol, Drug Use, and Mental Health, 
is here today, and I would be glad to answer any questions and 
I know she would, also. Thank you, Senator.
    Senator Biden. Thank you very much.
    Let me begin with you. What does it take for a treatment 
center to be qualified to distribute methadone?
    Ms. Allshouse. They have to be approved by the single State 
agency, which is Renatta, Ms. Henry's division, at this point. 
We have to be approved by the FDA and the DEA to also provide 
the drug, since it needs to be stored and distributed 
appropriately.
    Senator Biden. And how many such distribution sites are 
there in Delaware?
    Ms. Allshouse. There are only two in Delaware, Brandywine 
Counseling in New Castle County, and as you can see, we have 
over 700 addicts in treatment just in that particular program, 
and also there is one in Kent County run by Peg McMullen, Kent 
County Counseling, which I know has over 60 individuals.
    Senator Biden. Have you noticed any change in the profile 
of those seeking help from you, not court assigned, but just 
spontaneously seeking help?
    Ms. Allshouse. Yes, sir. Most of the people who come for 
admission are younger now. Methadone programs, they used to say 
they were aging out. People were 35, 40, 50 years old. Now, we 
are getting people younger, a lot of younger white young 
ladies, which brings another whole problem into drug treatment, 
which is pregnancy. We also have a pregnancy program, and that 
is being stretched to its limits, also, because when you deal 
with a younger population, you are also dealing with other 
problems associated with that.
    Senator Biden. In the report that I have updated here, this 
heroin report, and it is the second one, I mean, I did this 6 
years ago and I think you are familiar with that----
    Ms. Allshouse. I am.
    Senator Biden [continuing]. One of the things that I call 
for is for drug addiction, generally, for adults, is that there 
either be treatment or prison, and then treatment in prison if 
there is prison. What I hear from my critics is that--I mean, 
personally, my critics, those who criticize that position, is 
the following. Without enforcement, without the threat of a 
sentence over the head of an individual, no one seeks 
treatment. Is that true in your experience?
    Ms. Allshouse. No. That is why I brought these slides. 
Those people waiting outside, camping outside our doors, are 
not sent by the law. In fact, that is a real misconception 
about heroin addiction. Most of the people in my program, 
heroin addicts, do not really have long criminal records. Most 
of the crimes they commit early on in their addiction have to 
do with against their families, stealing checks, taking credit 
cards, also shoplifting, also prostitution, and those crimes 
really do not end you up in jail, and a lot of times, heroin 
addicts have to go way down in their addiction in order to end 
up in the prison setting.
    I think there should be treatment in prison, but we need to 
intervene early in these lives, and so by including things like 
shoplifting and prostitution in the drug courts, we would be 
able to intervene earlier on in the addiction process. Those 
people had no courts over them to get admitted. They were 
waiting. They want to come to the programs.
    Senator Biden. Now, my experience nationally has been, 
regardless of which jurisdiction I am in, that there are always 
a heck of a lot fewer treatment slots than people who literally 
are raising their hand and saying, I am not arrested yet, I am 
not being sent anywhere, I need help, and literally knocking on 
somebody's door. I thought it was a pretty graphic slide, two 
young kids, they look like they were high school, college-age 
kids, sleeping outside the door to get inside.
    What we have to do across the Nation is we turn these folks 
out, and I do not know what the hell we expect them to do. I 
mean, we are going to turn them away and they are going to say, 
oh, well, no problem. I am going to just say no today. I am not 
going to rob anybody. I am not going to burglarize anything. I 
am not going to steal Dad's credit card. I am not going to hock 
the family jewels. I am not going to do any of that. It is 
beyond me. I do not quite get it, except I think I really do 
get it.
    Ms. Allshouse. Senator, if you had a disease and you had to 
sit outside your doctor's office at 5:30 in the morning in 
order to get an appointment, you would think something is 
wrong, and that is just what we are doing.
    Senator Biden. Well, the difference here is, that I have 
found, since I have worked in this not as intensely as you, but 
for 2 years longer than you have been doing it, is that I, and 
I get in trouble--I get in trouble a lot, but I get in trouble 
for saying this, as well. As part of our sort of puritan ethic, 
which is not a bad thing, this idea that if you are ill, if you 
get cancer, you did not do anything to get the cancer, so 
society rallies around and says, we will try, we will try to 
help, although we are not doing a very good job of that in 
terms of access to medical care and insured medical care.
    But my experience has been, and I would like you to comment 
on this, that there is this piece that this is a self-inflicted 
wound. Somebody by their own volition at some point picked up 
the first bag of this and used it. Therefore, there is this 
reaction, I find, across the social spectrum, white, black, 
Hispanic, Asian, rich, poor, men, women, liberal, conservative. 
It is, hey, look, do not make me pay to get them well when they 
did this to themselves. I have no obligation to deal with that. 
What is your response to that?
    Ms. Allshouse. Well, you know, we pour a lot of money into 
cancer research and a lot of people pick up cigarettes and we 
still pay for that. We treat people for cancer and they might 
relapse. We continue treating them. We have heart disease in 
this country and people do not do the exercise, they do not eat 
correctly, but we still treat them. Relapse in all other 
diseases is acceptable.
    For some reason, we have chosen this disease to have some 
sort of stigma associated and it needs to stop because we are 
losing too many children.
    Senator Biden. One last question I have for you. I believe 
that people would be more inclined to support my initiatives in 
the Congress and other places if they believed that ``treatment 
works.'' In other words, we hear the phrase, ``treatment 
works,'' but I think the average person, based on some 
experience, some observation--Ms. Allen, your daughter was in 
treatment a number of times, and----
    Ms. Allen. But she was never there long enough.
    Senator Biden. Right. Well, that is what I want to get at. 
There is the notion abroad that treatment does not work and the 
most often criticized aspect of my--I mean, the good and bad 
news is that I am most associated with the drug problem and 
drug strategies of anyone in the Congress because I have been 
doing it so long. It does not make me right, I have just been 
doing it so long.
    The letters, the comments, whether it is from the 
community, from the press, from anyone, is that, Biden, you 
keep pushing this notion of treatment, but it does not work. 
How do you define a success at Brandywine Counseling and 
Treatment? What constitutes a success?
    Ms. Allshouse. I would say the majority of my staff that 
works for me are recovering staff and they are a success. But 
every day an addict is not out committing a crime, hurting 
themselves, hurting their family, is a success.
    I would say again to you that we would not, because someone 
relapsed from another disease, deny them access to treatment, 
and this, again, is a chronic relapsing disease. Every research 
has shown, the longer you stay in treatment, the more 
successful you are going to be in staying off drugs. So the 
longer we keep addicts into treatment by any means, whether it 
is residential, outpatient, drug-free, drug detox, whatever, 
the longer we can hold onto them, the more they are going to be 
successful, and yes, they are going to relapse.
    Senator Biden. That is the key. I think one of the things 
that sometimes I also get criticized for is I say that we have 
to redefine what we mean by success.
    Ms. Allshouse. Right.
    Senator Biden. For example, if we shut down every high 
school in America that had a graduation rate less than 100 
percent, we would shut down almost every high school in 
America, literally. If we shut down every high school in 
certain minority communities in major cities that had a 
graduation rate less than 60 percent, we would shut down a 
majority of the high schools in all of those areas, in minority 
areas. We would shut them all down.
    We do not have the same standard of what constitutes 
success for baseball teams, football teams, high schools, 
military spending, about anything you can think of, as we do on 
the treatment side. But I think part of the reason is, we 
tend--not you--we tend to oversell treatment as what we mean by 
success.
    If my numbers are correct, and I have been doing more 
foreign policy these days in my responsibility than I have been 
the author of these initiatives, but if my recollection is 
correct, the average addict in America addicted to whatever 
substance, it could be cocaine, it could be heroin, it could be 
any number of hallucinogenics, any number of drugs, they 
commit, on average, 171 felonies a year, because most are not 
born millionaires. Most are not born owning a bank. Yet if you 
have that same person in treatment for 6 months, what you have 
done is you have cut the number of crimes they have committed 
in half.
    Ms. Allshouse. Right.
    Senator Biden. So there is a social value, and it is 
cheaper. It is cheaper.
    Ms. Allshouse. Much cheaper.
    Senator Biden. I think we have got to--or I have got to 
figure out a way to be more articulate in terms of 
communicating to people what the genuine benefit, the immediate 
benefit of treating someone who they believe it is their fault 
that the reason they got there, and more explicitly, 
immediately and clearly their fault in the minds of the vast 
majority of Americans, and I think they think that with good 
reason.
    Maria, you and I have known each other a long time. I am a 
big fan of yours, as you well know. One of the things I like 
about what, as you pointed out so nicely in an occasion not so 
long ago, although I am not a co-founder, I am basically a co-
founder of the Latin American Community Center. We go back a 
long way. I can remember when you only had a little row house 
and not much else. You have expanded greatly.
    I think one of the reasons for your success is, you are 
also street smart. You understand what people mean and what 
they are saying. What are kids saying? This is what I was 
trying to get at, and maybe Sergeant Hernandez can get into 
this again. What is the deal in the school yard, in the parked 
car at 11:30 at night, in the locker, in the places where kids 
congregate? What do they talk about when they talk about 
heroin? How do they talk about it? Do they talk about it like 
they talk about marijuana?
    I go to high schools all up and down this State. One of the 
disturbing things, and I have talked about this with Mrs. 
Aiken, whether it is a fine private school, an expensive 
private school like Tower Hill or Archmere, Catholic or 
nonsectarian, or whether it is a local public school, a small 
one like Del Mar, or a big one like any number of the large 
high schools in the State, I ask them about marijuana. One of 
the disturbing things that has happened in the last 15 years, 
and I have been doing this a long time, I asked them if it is 
dangerous. Most of them do not think it is dangerous.
    Now, 15 years ago, you asked that question, we went through 
a period where they raised their hand and said, yes, it is 
dangerous. It was accepted that it is a dangerous thing. Today, 
it is not.
    What do kids say when you say heroin? In our generation, 
and I was still on a college campus in 1968 when the drug 
epidemic was real there, and you say heroin, they go, oh, man, 
heroin, man, that is bad stuff. But if you said marijuana, if 
you said doing a line of coke, if you said, with these same 
people who were in a drug culture, they would say, I can handle 
that. But today, what are they saying about heroin? How are 
they talking about it?
    Ms. Matos. It is da bomb.
    Senator Biden. It is da bomb. I know the phrase, but 
explain what you mean by they say it is da bomb.
    Ms. Matos. It makes you higher faster. I mean, it is 
faster.
    Senator Biden. But do they look at it in terms of--do they 
have a sense of the gravity of it? I am sure--I should not say 
I am sure.
    Sergeant Hernandez.  Senator.
    Senator Biden. Yes.
    Sergeant Hernandez.  If I may, it all depends on their 
knowledge base. If they have not been equipped with that 
knowledge of how dangerous this drug is, they are likely to be 
drawn to it, again, by their friends, in a context that you 
should try this. This is the greatest stuff. If they are not 
equipped with that knowledge, what we have found, once they 
have seen the Heroin Alert Program, they walk away from it 
saying, I did not know.
    Senator Biden. What I am trying to get at is, I am trying 
to make your case for you. What do they say before they see the 
program? If you said to kids in high school today, if you 
walked up--if I were a 16-year-old kid and I walked into any of 
the high schools that I went to, any one, and I said, man, I 
tell you what, I got the greatest high last night. I got this 
hypodermic right here. All I have got to do is give you a shot, 
man.
    Ninety percent--99 percent of the kids, unless they are 
already addicted to something else, would go, whoa, wait, keep 
that thing in your pocket, man. I do not want any part of that. 
I do not know anyplace anyone has ever testified that kids do 
not understand that when you stick a needle in your vein, that 
is something bad. That is worse.
    Sergeant Hernandez.  That is not the process, though.
    Senator Biden. No, I know it is not. That is what I am 
trying to get at.
    Ms. Matos. Senator, here is what I am going to do for you.
    Senator Biden. Talk to me like it is a street.
    Ms. Matos. Here is what I am going to do. I am going to go 
back and I am going to ask the kids and then I am going to send 
it to you in writing. I am going to go back and ask the kids, 
just like I asked them how available it is.
    Senator Biden. Let me tell you what they tell me, because I 
go around and I ask, and I would like your response. Let me 
tell you what they tell me. They tell me that doing this is not 
a big deal. I can handle this. There is nothing to this. It is 
like back in the 1920's, they used to have a phrase called 
``chasing the dragon.'' Do you know what ``chasing the dragon'' 
means? We are only about 60 years behind. It was they would 
smoke, these rings of smoke, and they would follow the smoke, 
and it was heroin they were smoking because it used to be real 
pure. It is no problem, man. This is not like that crack crap.
    Ms. Matos. Exactly. That is----
    Senator Biden. This crack stuff, man, I have got that 
figured out. You use that, you never get back. That is all this 
stuff. But this, this is no big deal. I wish some of the 
students out there who experienced it would tell me how they 
talked about it before they used it--before they used it--
because somehow, that is the reason why I think your program is 
so important.
    The only problem I have with the program, and I am going to 
yield to Ms. Allen here because she wants to say something, I 
think--the only problem I have with some of the education 
programs, and I have none with yours, is whether or not they 
are real, whether or not they get to these kids. I mean, you 
can get up there and all the adults can get up and talk all 
they want about drugs and drug use, and there are certain 
things like seeing that video, Lieutenant. That would get their 
attention, in my view.
    I am an old man now, I am not a kid anymore, but part of 
the problem is that when we do all these education programs 
that keep kids away from bad things, whether it is drugs or 
other things, it is like, get a life, will you? You are adults. 
You are not talking--I mean, we have to figure out what they 
are saying, what they think, before we can figure out how to 
deal with it.
    I have not been very convinced, and maybe because I am 
getting hoarse hollering about this issue. I have been 
hollering about this issue for 5 years. By the way, when I 
first brought this up, none of the police agencies in the 
State--I had a meeting with you all; you all yawned. We met 
down at Buena Vista. It was, like, OK. Joe has got another 
warning. Here we go. This is it.
    I talked to the school administrators. Heroin? Oh, come on, 
heroin. Marijuana, cocaine, yes; heroin, no. So these guys have 
figured out a way to package, man. They give it a name. It is 
cheap--cheap to start with, and it is real easy. You either 
snort it or you smoke it, but you do not have to stick it in 
your vein. Now, they all want to stick it in their vein once 
they get addicted because that is quicker, that is higher, it 
is faster.
    But you all are talking like adults to me. Maybe that is 
because you are adults. Maybe I should have young kids here.
    Sergeant Hernandez.  We do have some youths that I have 
been asked to recognize. If I may, we have a peer group of 
these young folks who are here.
    Senator Biden. Why do you not introduce them?
    Sergeant Hernandez.  There are here to change the world. 
That is what they are here to do.
    Senator Biden. Why do you not stand up. [Applause.]
    Let me ask you a question, and you do not even have to 
identify yourself. Let me ask you a question. The first time 
you were around somebody--first of all, is heroin the first 
drug you used?
    Male Floor Speaker. No.
    Senator Biden. How many people do you know, their first 
introduction to a drug is heroin?
    Male Floor Speaker. Nobody.
    Female Floor Speaker. None.
    Senator Biden. Nobody? So you think that, or your 
experience is that the heroin users that you are associated 
with all came with a bit of sophistication to the process. They 
had either used coke or methamphetamines or something. What is 
the experience of the drug most often used before heroin in 
your circles?
    Male Floor Speaker. Marijuana.
    Female Floor Speaker. Marijuana.
    Senator Biden. Marijuana? Now, why marijuana to heroin? Why 
not marijuana to coke?
    Male Floor Speaker. From my experience, it goes both ways.
    Female Floor Speaker. Right. Yes. If they go from marijuana 
to cocaine, then usually, like in my experience, they need the 
heroin to come down from the high of cocaine.
    Senator Biden. Is that the old parachute? The way crack 
cocaine was being marketed, it got real sophisticated. You get 
that immediate high, but you lace it with heroin so that you 
come down slower.
    Female Floor Speaker. Right.
    Senator Biden. How many totally brand new, in any of your 
experience, the two young people or any of you at the table, 
how many of you experienced the circumstance and could tell me 
about it where a kid just flat out, first time out, after being 
drunk or whatever or just straight, and tries heroin for the 
first time? Any experience with that? Mom, what was your 
experience with your daughter? How did she talk to you about 
how she got introduced?
    Ms. Allen. She told me that the first time she was 
attending an AA meeting.
    Senator Biden. Attending an AA meeting?
    Ms. Allen. Someone offered it to her and she did it, and 
she snorted it.
    Senator Biden. All right. How long, kids, and I am calling 
you kids because I do not want to identify you, young people, 
how long after snorting--I assume you started by snorting 
heroin as opposed to injection, right?
    Female Floor Speaker. Right.
    Senator Biden. What is your experience of watching your 
friends and acquaintances? How long before they start to 
mainline it?
    Male Floor Speaker. For me personally, it was about 1\1/2\ 
years after I smoked it.
    Senator Biden. About 1\1/2\ years after?
    Male Floor Speaker. About 1\1/2\ years after smoking, I 
started injecting, because I found out--I mean, it would have 
started me off cheaper to go back and start shooting, for the 
quicker high and the immediate high, instead of spending the 
$130 a day, where the sniffing just to feel normal again, I 
decided I am just going to start shooting and pay $10 and $20 a 
day and get that same effect.
    Senator Biden. So it was the economics of it that sent you 
that way?
    Female Floor Speaker. Yes.
    Ms. Allshouse. They are not stupid.
    Senator Biden. No. By the way, I asked one of the leading 
experts in drug addiction in 1981, I asked one of the leading 
guys in the world on drug addiction, what makes somebody use 
drugs in the first instance? Is there any common denominator? 
Do you know what they said? They said, they tend to be the kids 
who are the brightest. They tend to be the kids who are most 
inclined to take risk. They tend to be the kids who, when they 
were 4 years old, you said, do not cross the street, and they 
said, OK, fine, and get out there and decided they are going to 
cross the street. It is an amazing phenomenon. So I have no 
doubt they are not dumb.
    Ms. Allshouse. But, you know, Senator, what they said, I 
think, is also true, that a lot of people who were using 
cocaine have switched to heroin, and when the DEA was here and 
talked about combining the markets, that is when I think our 
program really saw an increase, because you could do one-stop 
shopping then. It was not someone else selling heroin and 
someone else selling cocaine. They learned to market that to 
younger kids, then.
    Sergeant Hernandez.  Senator, some of the cocaine users 
have indicated to us that the programs that they have been 
introduced to heroin, as you heard already, to soften the crash 
of crack cocaine, and as a result, now they are heroin addicts. 
One young lady, in particular, I recall, she said, it kicked me 
in the rear end. It is not what I wanted.
    Senator Biden. One of the things we have known for a long 
time is that there is a market for--and the reason why I 
predicted 10 years ago they would double market this stuff--is 
that there is a market for, just if you look how they started 
to lace crack, so that the down would not be so devastating, 
the paranoia would be impacted on, and so on.
    The reason I ask this question, my last question, because I 
promised I would get everybody out of here by 1 o'clock, if, in 
fact, this little bag, if we knew, 90 percent or 95 percent or 
100 percent of the time were used by someone only after they 
had already been consuming a dangerous and controlled 
substance, then with all due respect, the program is not very 
effective.
    Let me get right to it, cut to the chase here. I do not 
mean to be critical of any program. I do not know enough about 
the program to tell you whether it is effective or not, because 
if you sit with somebody who is already hooked on coke and you 
tell them, this is going to be a very bad thing for you, and 
you tell them all the dangers of heroin, they are going to, the 
way the mind works, anyone's mind, say, hey, man. I am already 
strung out on coke. Do not give me a lecture on this is bad for 
me. I have already figured out what is bad. I am strung out on 
coke. At least this way, it can give me the kind of lasting 
effect that I want, does not bring me down with such a crash.
    On the other hand, if, in fact, kids are using this stuff 
for the first time, if this becomes, you do not need a gateway 
beyond marijuana, it is just here, marijuana to here, then you 
have got a different deal. Then you have got a different deal 
in terms of what you sell.
    One of the things that I cannot afford, to be honest with 
you, as being the guy most out front in this for so long, is I 
have got to make sure what I am supporting works or I lose my 
constituency. That is, taxpayers are willing to come up and pay 
for a Biden crime bill that provides, or a drug program that 
provides billions of dollars. And so that is why I want to 
know, I want to know how you get here the first time. If the 
first time you get here is after you are already addicted, then 
it is a different kind of program.
    You wanted to say something?
    Female Floor Speaker. Back to when you were saying how they 
treat cancer and all of those diseases, well, addiction starts 
before anybody even picks up the drug. Most heroin addicts do 
not know when their addiction started until they are in 
recovery. Addiction starts long before you actually pick up the 
drug.
    Senator Biden. Unfortunately, the medical science does not 
sustain that. That is part of the problem. So that is the 
assumption addicts make and that is the assumption many in the 
field make, but there is not hard data to sustain that.
    Female Floor Speaker. That is why you need us up on this 
table, rather than them.
    Senator Biden. Yes.
    Male Floor Speaker. Like she was just saying, the chances 
of that happening, about you telling somebody else about that, 
the reason they are not going to listen to you is because, 99 
percent of the time, you have not been there, unlike us, who 
have been there and who have experienced this, because they 
would rather hear it coming from somebody our age, which is 
their age, telling them, I have been there. I know what is 
going to happen to you. It is different from somebody given 
your age who has never been there, with only textbook 
knowledge.
    Senator Biden. I do not disagree with that assumption. I do 
not disagree with that assumption.
    Ms. Matos. Senator.
    Senator Biden. Yes.
    Ms. Matos. Sobert Silagy, who is the subdirector of Hogar 
Crea, is here. Maybe you can ask him.
    Senator Biden. Where is he?
    Ms. Matos. Is he still here?
    Mr. Silagy. Yes. How are you doing? My name is Robert 
Silagy.
    Senator Biden. Robert, how many folks come to you after 
having been just introduced with this little bag and end up 
being addicted? They say, look, the first drug other than 
marijuana I tried was heroin.
    Mr. Silagy. I think, realistically, everybody starts with 
the least effective drugs and works their way up to harder 
drugs, except maybe in Puerto Rico, because where our program 
is founded from in Puerto Rico, it seems that heroin usage down 
there starts at such a young age, I would think that there are 
people there that jumped right into heroin without trying 
anything else.
    But for the most part, in the United States, I think that 
most of the people grew up with the knowledge that they just do 
things for experimentation, but it goes a little further than 
they want it to and they find themselves stuck somewhere that 
they cannot get out of.
    Senator Biden. One of the things, again, medical science 
has indicated, based on all the reports I have read and, like I 
said, a little bit of knowledge with a legal background, not a 
medical background--it is dangerous, but I have been doing this 
for so long--one of the things I have found is that a 
significant number of people who try heroin for the first time, 
it does not work on them. They get sick. So that is why, up to 
now, particularly before it became so pure, it was not 
something as many people stuck with.
    I will not tell you the analogy that Dr. Klieber and others 
who are leaders in the field have used, but it is a little like 
trying something for the first time in the back seat of a car 
in some lousy circumstance and not getting much pleasure from 
it and doing it and getting much pleasure from it.
    One thing that brings you back is peer pressure. The other 
thing that brings you back is the pure joy of it, and there is 
not a lot of, for the first time, pure joy, especially when 
folks were mainlining heroin, especially when purities were way 
down.
    So what we have got to figure out is what the dynamic has 
changed in terms of the purity being up, the impact upon use, 
and whether or not this is a case of first instance, because if 
these folks are right, Marie, and I think they are, the 
students, the young people as well as all of you, that it is 
not a gateway drug, it is the drug that you work your way up 
to, then there are a whole lot of signs that come before we get 
to this and we have got a chance of getting a lot of people off 
of this beforehand, as opposed to what I have been hearing up 
until now.
    I have been hearing, and students tell me, literally in the 
high schools when I go around, that they have seen people who 
have never used drugs after getting drunk and hanging out 
trying this. It is no big thing, a little bit like the first 
time somebody tries a hallucinogenic drug. You do not have to 
already be addicted to anything to try a hallucinogenic. That 
is not the experience. It is not automatic. You do not have to 
be strung out on anything. It is the dare. It is the time. It 
is the moment. It is told you can control it. It is told it is 
a one-time effect, and so on and so forth.
    So one of the things that is important for parents to know 
is whether or not the first thing they are going to find is one 
of these little blue bags, these plastic bags, or the first 
thing they are going to find is paraphernalia for smoking 
marijuana, to give some guidance to parents. If, in fact, this 
is in the vast majority of time only after being a habitual 
user of marijuana, or only after being on some other drug, then 
what you have got to do, with all due respect, is spend your 
time in the schools talking about those other drugs and what it 
leads to, as opposed to talking about what this effect is 
alone.
    Yes.
    Mr. Prickett. Senator, I am William Prickett.
    Senator Biden. I know who you are, Bill. I used to work for 
you.
    Mr. Prickett. Your memory is wrong. Let me say briefly, 
thank you for these hearings today. They are very meaningful. 
You have the cream of the enforcement group, Federal and State, 
here, and you have the cream of the treatment people. What you 
do not have is what Senator Specter referred to, that is, the 
leadership of this community. Where are the church leaders? 
Where are the industry leaders?
    Sergeant Hernandez.  They are here. They are here.
    Mr. Prickett. Some, but not all. And your message, Senator, 
should be much wider, because, as Senator Specter said, the 
societal response has not been adequate to the peril that we 
face from drugs. There is not one family in Delaware that does 
not have a member or a friend who has not either been 
devastated or threatened by drugs.
    So I appreciate what you have done and told all of us. What 
I suggest, the most important thing is to get the forces of the 
community as well-educated and as dedicated to the problem as 
is warranted. Thank you.
    Senator Biden. Thank you.
    Would any of you like to make a closing comment? It is now 
1 o'clock.
    Ms. Matos. I would like to say something, Senator, that 
while you have treatment on your mind and treatment works, we 
also have to remember not to give up on prevention, because we 
want to prevent it. We want to prevent the alcohol and then the 
drugs and the tobacco before it starts. So remember prevention, 
because prevention also works.
    Senator Biden. As you well know, and I will just state the 
obvious, the purpose of this hearing was to focus on one drug, 
one time. I am the author of that prevention bill that calls 
for spending $10 billion on prevention, as well as the 
treatment side of it, as well as the medical side of it, 
because unless we can figure out how to treat these diseases of 
the brain better than we are now and prevent them as well as 
treat them, this is a problem that is just going to be the drug 
of the week, the drug of choice. We will be back in 5 years and 
we will be rediscovering crack cocaine, or 10 years.
    Ms. Allen, do you have any comment you would like to make?
    Ms. Allen. Yes; I just wanted to say one thing. For the 
young people, the parents know this, that they should never 
give up on their young people that are addicted, but another 
thing is, I do not want them to give up on us for our efforts.
    Senator Biden. Thank you.
    Gentlemen, any comment?
    Again, I thank you all very much. I can hang here a little 
bit for those who want to talk to me, but I thank you all very, 
very much for your time and your effort and we are adjourned.
    [Whereupon, at 1:06 p.m., the subcommittee was adjourned.]

                                <greek-d>

  
</pre></body></html>
